<html>
<title> - FOREIGN CYBER THREATS TO THE UNITED STATES</title>
<body><pre>[Senate Hearing 115-418]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-418

                       FOREIGN CYBER THREATS TO THE
                             UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 5, 2017

                               __________

         Printed for the use of the Committee on Armed Services
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


       Available via the World Wide Web: http://www.Govinfo.gov/
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-940 PDF                  WASHINGTON : 2019                    
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98e9986a98a9c9a9d818c8599c78a8684c7">[email&#160;protected]</a> 

                      COMMITTEE ON ARMED SERVICES
                      
                      
                    JOHN McCAIN, Arizona, Chairman
                        
JAMES M. INHOFE, Oklahoma		JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan
                                     
                                 
                                     
               Christian D. Brose, Staff Director
            Elizabeth L. King, Minority Staff Director

                                  (ii)                      
                      
                      
                            C O N T E N T S

_________________________________________________________________

                            January 5, 2017

                                                                   Page

Foreign Cyber Threats to the United States.......................     1

Lettre, Honorable Marcel J., II, Under Secretary of Defense for       5
  Intelligence.
Clapper, Honorable James R., Jr., Director of National                7
  Intelligence.
Rogers, Admiral Michael S., USN, Commander, United States Cyber      10
  Command; Director, National Security Agency; Chief, Central 
  Security Services.

Questions for the Record.........................................    52

                                 (iii)

 
                      FOREIGN CYBER THREATS TO THE
                             UNITED STATES

                              ----------                              


                       THURSDAY, JANUARY 5, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:29 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Wicker, 
Fischer, Cotton, Rounds, Ernst, Tillis, Sullivan, Graham, Cruz, 
Reed, Nelson, McCaskill, Shaheen, Gillibrand, Blumenthal, 
Donnelly, Hirono, Kaine, King, and Heinrich.
    Other Senators Present: Senators Purdue, Warren, Peters, 
and Sasse.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning, everyone.
    Before we begin, I want to welcome all our members back to 
the committee and extend a special welcome to the new members 
joining us. On the Republican side, we are joined by Senator 
Purdue and Senator Sasse. On the Democrat side, we are joined 
by Senator Warren and Senator Peters.
    It is a special privilege to serve on this committee, most 
of all because it affords us the opportunity to spend so much 
time in the company of heroes, the men and women who serve and 
sacrifice on our behalf every day. I hope you will come to 
cherish your service on this committee as much as I have over 
the years, and I look forward to working with each of you.
    The committee meets this morning for the first in a series 
of hearings on cybersecurity to receive the testimony on 
foreign cyber threats to the United States. I would like to 
welcome our witnesses this morning: James Clapper, Director of 
National Intelligence; Marcel Lettre, Under Secretary of 
Defense for Intelligence; and Admiral Mike Rogers, Commander of 
U.S. Cyber Command, Director of the National Security Agency, 
and Chief of the Central Security Service.
    This hearing is about the range of cybersecurity challenges 
confronting our Nation, threats from countries like Russia, 
China, and North Korea and Iran, as well as non-state actors 
from terrorist groups to transnational criminal organizations. 
In recent years, we have seen a growing series of cyber attacks 
by multiple actors, attacks that have targeted our citizens, 
businesses, military, and government. But there is no escaping 
the fact that this committee meets today for the first time in 
this new Congress in the aftermath of an unprecedented attack 
on our democracy.
    At the President's direction, Director Clapper is leading a 
comprehensive review of Russian interference in our recent 
election with the goal of informing the American people as much 
as possible about what happened. I am confident that Director 
Clapper will conduct this review with the same integrity and 
professionalism that has characterized his nearly half a 
century of government and Military Service. I am equally 
confident in the dedicated members of our intelligence 
community.
    The goal of this review, as I understand it, is not to 
question the outcome of the presidential election. Nor should 
it be. As both President Obama and President-elect Trump have 
said, our Nation must move forward. But we must do so with full 
knowledge of the facts. I trust Director Clapper will brief the 
Congress on his review when it is completed. This is not the 
time or place to preview its findings.
    That said, we know a lot already. In October, our 
intelligence agencies concluded unanimously that, quote, the 
Russian Government directed compromises of emails from United 
States persons and institutions, including from United States 
political organizations. They also assessed that, quote, 
disclosures of alleged hacked emails were consistent with the 
methods and motivations of Russian-directed efforts and that 
these thefts and disclosures were intended to interfere with 
the United States election process.
    Since then, our intelligence community has released 
additional information concerning these Russian activities, 
including a joint analysis report that provided technical 
details regarding the tools and infrastructure used by the 
Russian civilian and military intelligence services to attack 
the United States.
    Every American should be alarmed by Russia's attacks on our 
Nation. There is no national security interest more vital to 
the United States of America than the ability to hold free and 
fair elections without foreign interference. That is why 
Congress must set partisanship aside, follow the facts, and 
work together to devise comprehensive solutions to deter, 
defend against and, when necessary, respond to foreign cyber 
attacks.
    As we do, we must recognize that the recent Russian attacks 
are one part of a much bigger cyber problem. Russian cyber 
attacks have targeted the White House, the Joint Staff, the 
State Department, our critical infrastructure. Chinese cyber 
attacks have reportedly targeted NASA, the Departments of State 
and Commerce, congressional offices, military labs, the Naval 
War College, and United States businesses, including major 
defense contractors. Most recently, China compromised over 20 
million background investigations at the Office of Personnel 
Management. Iran has used cyber tools in recent years to attack 
the United States Navy, United States partners in the Middle 
East, major financial institutions, and a dam just 25 miles 
north of New York City. Of course, North Korea was responsible 
for the massive cyber attack on Sony Pictures in 2014.
    What seems clear is that our adversaries have reached a 
common conclusion: that the reward for attacking America in 
cyberspace outweighs the risk. For years, cyber attacks on our 
Nation have been met with indecision and inaction. Our Nation 
has no policy and thus no strategy for cyber deterrence. This 
appearance of weakness has been provocative to our adversaries 
who have attacked us again and again with growing severity. 
Unless we demonstrate that the costs of attacking the United 
States outweigh the perceived benefits, these cyber attacks 
will only grow.
    This is also true beyond the cyber domain. It should not 
surprise us that Vladimir Putin would think he could launch 
increasingly severe cyber attacks against our Nation when he 
has paid little price for invading Ukraine, annexing Crimea, 
subverting democratic values and institutions across Europe, 
and of course, helping Bashar Assad slaughter civilians in 
Syria for more than a year with impunity. The same is true for 
China, Iran, North Korea, and any other adversary that has 
recently felt emboldened to challenge the world order. Put 
simply, we cannot achieve cyber deterrence without restoring 
the credibility of United States deterrence more broadly.
    To do so, we must first have a policy, which means finally 
resolving the long list of basic cyber questions that we as a 
Nation have yet to answer. What constitutes an act of war or 
aggression in cyberspace that would merit a military response, 
be it by cyber or other means? What is our theory of cyber 
deterrence, and what is our strategy to implement it? Is our 
Government organized appropriately to handle this threat, or 
are we so stove-piped that we cannot deal with it effectively? 
Who is accountable for this problem, and do they have 
sufficient authorities to deliver results? Are we in the 
Congress just as stove-piped on cyber as the executive branch 
such that our oversight actually reinforces problems rather 
than helping to resolve them? Do we need to change how we are 
organized?
    This committee intends to hold a series of hearings in the 
months ahead to explore these and other questions. We look 
forward to hearing the candid views of our distinguished 
witnesses today who have thought about and worked on these 
questions as much as anyone in our Nation.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. I 
want to commend you for your leadership in promptly scheduling 
this hearing on foreign cyber threats.
    I would also like to welcome our witnesses: Director 
Clapper, Under Secretary Lettre, and Admiral Rogers. Thank you, 
gentlemen, for your service and your dedication.
    While I understand that our witnesses will be discussing 
the cyber threats that many countries, including China and 
India, pose to our Nation, I would like to focus for a few 
minutes on the widely reported instances of Russian hacking and 
disinformation that raised concerns regarding the election of 
2016.
    In addition to stealing information from the Democratic 
National Committee and the Clinton campaign and cherry-picking 
what information it leaked to the media, the Russian Government 
also created and spread fake news and conspiracies across the 
vast social media landscape. At the very least, the effect of 
Russia's actions was to erode the faith of the American people 
in our democratic institutions. These and other cyber tools 
remain highly active and engaged in misinforming our political 
dialogue even today.
    There is still much we do not know, but Russia's 
involvement in these intrusions does not appear to be in any 
doubt. Russia's best cyber operators are judged to be as 
elusive and hard to identify as any in the world. In this case, 
however, detection and attribution were not so difficult, the 
implication being that Putin may have wanted us to know what he 
had done, seeking only a level of plausible deniability to 
support an official rejection of culpability.
    These Russian cyber attacks should be judged within the 
larger context of Russia's rejection of the post-Cold War 
international order and aggressive actions against its 
neighbors. Russia's current leaders, and President Putin in 
particularly, perceive the democratic movements in the former 
Soviet states, the West's general support for human rights, 
press freedoms, the rule of law and democracy, as well as NATO 
and EU enlargement, as a threat to what they believe is 
Russia's sphere of influence.
    Putin's Russia makes no secret of the fact that it is 
determined to aggressively halt and counter what it 
characterizes as Western encroachment on its vital interests. 
The invasion of Georgia, the annexation of Crimea, the 
aggression against Ukraine featuring sophisticated hybrid 
warfare techniques, the continuing military buildup despite a 
declining economy, saber-rattling in the Baltics and Baltic 
Sea, the authoritarian onslaught against the press, NGOs, and 
what remains of the Russian democratic opposition, the 
unwavering campaign for national sovereignty over the Internet, 
and the creation of an ``iron information curtain'' like 
China's Great Firewall and its aggressive interference in 
Western political processes all are of one piece. Russia's 
efforts to undermine democracy at home and abroad and 
destabilize the countries on its border cannot be ignored or 
traded away in exchange for the appearance of comity.
    Furthermore, what Russia did to the United States in 2016, 
it has already done and continues to do in Europe. This 
challenge to the progress of democratic values since the end of 
the Cold War must not be tolerated.
    Despite the indifference of some to this matter, our Nation 
needs to know in detail what the intelligence community has 
concluded was an assault by senior officials of a foreign 
government on our electoral process.
    Our electoral process is the bedrock of our system of 
government. An effort to manipulate it, especially by a regime 
with values and interests so antithetical to our own, is a 
challenge to the Nation's security which much be met with 
bipartisan and universal condemnation, consequences, and 
correction.
    I believe the most appropriate means to conduct an inquiry 
is the creation of a special select committee in the Senate, 
since this issue and the solutions to the problems it has 
exposed spill across the jurisdictional divides of the standing 
committees on Armed Services, Intelligence, Foreign Relations, 
Homeland Security, and Judiciary. Failing that, our committee 
must take on as much of this task as we can, and I again 
commend the chairman for his commitment to do so.
    Therefore, I am pleased and grateful that his efforts will 
be extended, the energy will be invested on the matters that 
are so critical to the American people. I also want to applaud 
President Obama's initial steps publicized last week to respond 
to Russia's hostile actions.
    General Clapper, Under Secretary Lettre, Admiral Rogers, we 
appreciate your urgent efforts to discover what happened and 
why and to make these facts known to the President, the 
President-elect, Congress, and the American people. Although 
your investigation and report to President Obama is not yet 
public, we hope you will be able to convey and explain what has 
been accomplished so far, including the steps already announced 
by the President.
    In addition, I am sure we will have many questions about 
how we are organized in the cyber domain and what changes you 
have recommended going forward, subjects that President Obama 
referenced in his signing statement of the National Defense 
Authorization Act for Fiscal Year 2017.
    These are difficult issues, but they are of vital 
importance to our Nation, our security, and our democracy. Mr. 
Chairman, I look forward to working with you in a bipartisan 
manner to conduct a thorough and thoughtful inquiry and to do 
more to address the cyber threats our Nation faces more broadly 
by state and non-state actors. Thank you very much.
    Chairman McCain. Welcome to the witnesses, and Mr. 
Secretary, we will begin with you for any opening statements or 
comment you might have.

STATEMENT OF HONORABLE MARCEL J. LETTRE II, UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Mr. Lettre. Thank you, Chairman, Ranking Member Reed, 
members of the committee. I appreciate the opportunity to be 
here today. I will shortly turn the microphone over to Director 
Clapper for some comments, followed by Admiral Rogers. As this 
is my last appearance before this committee before stepping 
down from 8 years of Pentagon service in a few weeks, I want 
to----
    Chairman McCain. I am sure you will regret not having that 
opportunity again.
    [Laughter.]
    Mr. Lettre. It will be nice to be skiing a little bit in 
February. That is for sure.
    But having said that, since I am just a few weeks from 
stepping down, I do want to thank this committee for its 
partnership and I want to thank Director Clapper and Admiral 
Rogers for the privilege of being able to serve together with 
them in the leadership of the U.S. intelligence community. To 
the men and women of the U.S. intelligence community, civilian 
and military, thousands of whom are deployed today around the 
world advancing U.S. interests and protecting America, I do 
admire your integrity. I admire your service. It has been an 
honor to serve with you over the last many years.
    In the interest of time, I will briefly note the Department 
of Defense's views on cyber in three core themes: first, the 
threats we must address; second, what we are doing to address 
them now; and third, the difficult but urgent work we know 
still lies ahead.
    First, the threats. As you know, the Department of 
Defense's leadership believes we confront no fewer than five 
immediate but also distinct and evolving challenges across all 
operating domains. We are countering the prospect of Russian 
aggression and coercion, especially in Europe, something we 
unfortunately we have had to energetically renew our focus on 
in the last several years.
    We are also managing historic change in perhaps the most 
consequential region for America's future, the Asia-Pacific, 
and watching for risks associated with China's destabilizing 
actions in the region.
    We are checking Iranian aggression and malign influence 
across the Middle East.
    We are strengthening our deterrent and defense forces in 
the face of North Korea's continued nuclear and missile 
provocations.
    We are countering terrorism with the aim of accelerating 
the lasting defeat of ISIL [Islamic State of Iraq and the 
Levant] and al Qaeda.
    These are what many in the Department of Defense have 
termed the Four Plus One, four state-based challenges and an 
ongoing condition of battling terrorism.
    As our joint written statement for the record has detailed, 
each of these security challenges, China, Russia, Iran, North 
Korea, and global terrorist groups such as ISIL, presents a 
significant cyber threat dimension to the United States 
military. Cyber is an operating domain that is real, complex, 
dynamic, contested, and must be addressed.
    Second, what we are doing about it. The Department of 
Defense has for several years pursued a comprehensive strategy 
for maintaining the necessary strategic dominance in this 
domain. Secretary of Defense Ash Carter has pressed for DOD 
[Department of Defense] to change, to adapt, and to innovate 
not only to meet today's challenges but also to ensure that we 
effectively defend against cyber threats well into an uncertain 
future.
    We have built and continue to build the means and methods 
that will strengthen our relative position against each of 
these dimensions of the cyber threat. The Government cyber 
policies, reflected in presidential policy directives and 
executive orders, provide guidance on the absolute necessity of 
a whole-of-government approach critical to protecting our 
Nation.
    The Department has developed, refined, and published its 
cyber strategy which clearly lays out three key DOD cyber 
missions: defending DOD networks, providing cyber options for 
our military commanders, and when called upon by our Nation's 
leaders, defending the Nation against cyber attacks of 
significant consequence.
    As the Director and Admiral Rogers will note, since 2009, 
the Department has matured Cyber Command to ensure clear 
command responsibility and authority and growing capabilities 
essential to our unity of effort for cyber operations.
    We also continue to mature our cyber mission forces which 
this fall achieved initial operating capability, or IOC, 
status. This force is providing military capability to execute 
our three missions in cyberspace. We are building new 
capabilities and new tools for the cyber mission force to use.
    Third, what remains to be done. As much as we have done, we 
recognize there is much more to do. Let me mention just a 
couple of those most important tasks here.
    First, we need to continue to develop and refine our 
national cyber policy framework, which includes the evolution 
of all dimensions of our deterrence posture: the ability to 
deny the adversary's objectives, to impose costs, and to ensure 
that we have a resilient infrastructure to execute a multi-
domain mission. This refinement in evolution in our deterrent 
thinking and capability will further empower decision-making at 
net speed.
    Second, within the Department, Cyber Command has matured 
and is doing more to protect the Nation and support global 
operations than ever before, and we need to continue, in fact, 
accelerate this maturation. Accordingly, the Secretary of 
Defense supports the elevation of Cyber Command to a unified 
combatant command and supports ending the dual hat arrangement 
for the leadership of NSA [National Security Administration] 
and Cyber Command and doing so through a deliberate conditions-
based approach while continuing to leverage the shared 
capabilities and synergies.
    Finally, we must redouble our efforts to deepen 
partnerships between government and the private sector and 
between the U.S. Government and our allies. We must continue to 
seek help from American industry, the source of much of the 
world's greatest technology talent, in innovating to find cyber 
defense solutions, build resiliency into our critical 
infrastructure systems, and strengthen our deterrence. With our 
international allies and partners, we must work together to 
promote stability in cyberspace, universal recognition that 
existing international law applies in cyberspace, and the 
adoption of voluntary peacetime norms of responsible state 
behavior.
    Mr. Chairman, thanks. I look forward to your questions. I 
will now pass the baton to Director Clapper. Thank you.
    Chairman McCain. General Clapper?

   STATEMENT OF HONORABLE JAMES R. CLAPPER, JR., DIRECTOR OF 
                     NATIONAL INTELLIGENCE

    Director Clapper. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, first thanks very much 
for your opening statements. Obviously, we are here today to 
talk about cyber threats that face our Nation, and I will offer 
some brief valedictory recommendations and a few parting 
observations. I certainly want to take note of and thank the 
members of the committee who are engaged on this issue and have 
spoken to it publicly.
    I know there is a great interest in the issue of Russian 
interference in our electoral process based on the many 
classified briefings the intelligence community has already 
provided on this topic to the Congress. Secretary of Homeland 
Security Jeh Johnson and I have issued statements about it. The 
joint analysis report that you alluded to publicly issued by 
the Department of Homeland Security and the Federal Bureau of 
Investigation provided details on the tools and infrastructure 
used by the Russian intelligence services to compromise 
infrastructure associated with the election, as well as a range 
of United States Government political and private sector 
entities, as you described.
    As you also noted, the President tasked the intelligence 
community to prepare a comprehensive report on Russian 
interference in our election. We plan to brief the Congress and 
release an unclassified version of this report to the public 
early next week with due deference to the protection of highly 
sensitive and fragile sources and methods. But until then, we 
are really not prepared to discuss this beyond standing by our 
earlier statements. We are prepared to talk about other aspects 
of the Russian cyber threat.
    We also see cyber threats challenging public trust and 
confidence in information services and institutions. Russia has 
clearly assumed an even more aggressive cyber posture by 
increasing cyber espionage operations, leaking data stolen from 
these operations, and targeting critical infrastructure 
systems.
    China continues to succeed in conducting cyber espionage 
against the United States Government, our allies, and United 
States companies. The intelligence community and the security 
experts, however, have observed some reduction in cyber 
activities from China against United States companies since the 
bilateral September 2015 commitment to refrain from espionage 
for commercial gain.
    Iran and North Korea continue to improve their capabilities 
to launch disruptive or destructive cyber attacks to support 
their political objectives.
    Non-state actors, notably terrorist groups most especially 
including ISIL, also continue to use the Internet to organize, 
recruit, spread propaganda, raise funds, collect intelligence, 
inspire action by disciples, and coordinate operations. In this 
regard, I want to foot stomp a few points that I have made here 
before.
    Rapidly advancing commercial encryption capabilities have 
had profound effects on our ability to detect terrorists and 
their activities. We need to strengthen the partnership between 
government and industry and find the right balance to enable 
the intelligence community and law enforcement both to operate, 
as well as to continue to respect the rights to privacy.
    Cyber operations can also be a means to change, manipulate, 
or falsify electronic data or information to compromise its 
integrity. Cyberspace can be an echo chamber in which 
information, ideas, or beliefs, true or false, get amplified or 
reinforced through constant repetition. All these types of 
cyber operations have the power to chip away at public trust 
and confidence in our information, services, and institutions.
    By way of some observations and recommendations, both the 
Government and the private sector have done a lot to improve 
cybersecurity, and our collective security is better but it is 
still not good enough. Our Federal partners are stepping up 
their efforts with the private sector but sharing what they 
have remains uneven. I think the private sector needs to up its 
game on cybersecurity and not just wait for the Government to 
provide perfect warning or a magic solution.
    We need to influence international behavior in cyberspace. 
This means pursuing more global diplomatic efforts to 
promulgate norms of behavior in peacetime and to explore 
setting limits on cyber operations against certain targets.
    When something major happens in cyberspace, our automatic 
default policy position should not be exclusively to counter 
cyber with cyber. We should consider all instruments of 
national power. In most cases to date, non-cyber tools have 
been more effective at changing our adversaries' cyber 
behavior. When we do choose to act, we need to model the rules 
we want others to follow since our actions set precedents.
    We also need to be prepared for adversary retaliation, 
which may not be as surgical, either due to our adversary's 
skill or the inherent difficulty in calibrating effect and 
impact of cyber tools. That is why using cyber to counter cyber 
attacks risks unintended consequences.
    We currently cannot put a lot of stock, at least in my 
mind, in cyber deterrence. Unlike nuclear weapons, cyber 
capabilities are difficult to see and evaluate and are 
ephemeral. It is accordingly very hard to create the substance 
and psychology of deterrence in my view.
    We also have to take some steps now to invest in the 
future. We need to rebuild trusted working relationships with 
industry and the private sector on specific issues like 
encryption and the roles and responsibilities for government, 
users, and industry.
    I believe we need to separate NSA and CYBERCOM [Cyber 
Command]. We should discontinue the temporary dual hat 
arrangement, which I helped design when I was Under Secretary 
of Defense for Intelligence 7 years ago. This is not purely a 
military issue. I do not believe it is in the NSA's or the IC's 
[intelligence community] long-term best interest to continue 
the dual hat setup.
    Third, we must hire, train, and retain enough cyber talent 
and appropriately fuse cyber as a whole-of-IC workforce. 
Clearly cyber will be a challenge for the U.S., the 
intelligence community, and our national security for the 
foreseeable future, and we need to be prepared for that. 
Adversaries are pushing the envelope since this is a tool that 
does not cost much and sometimes is hard to attribute.
    I certainly appreciate, as we all do, the committee's 
interest in this difficult and important challenge.
    I will wrap up by saying after 53 years in the intelligence 
business in one capacity or another, happily I have just got 15 
days left.
    [Laughter.]
    Director Clapper. I will miss being involved in the 
intelligence mission, and I will certainly miss the talented 
and dedicated patriots who are in the United States 
intelligence community. I am very proud of the community of 
professionals I have represented here for the last 6-\1/2\ 
years who do not get much public recognition and who like it 
that way. They have always supported me and I am confident they 
will do no less for my successor, whoever that turns out to be.
    With that, let me stop and pass to Admiral Rogers.
    Chairman McCain. Thank you, General.
    Admiral Rogers?

STATEMENT OF ADMIRAL MICHAEL S. ROGERS, USN, COMMANDER, UNITED 
   STATES CYBER COMMAND; DIRECTOR, NATIONAL SECURITY AGENCY; 
                CHIEF, CENTRAL SECURITY SERVICES

    Admiral Rogers. Chairman McCain, Ranking Member Reed, 
members of the committee, good morning and thank you for the 
opportunity to appear before the committee today on behalf of 
the United States Cyber Command and the National Security 
Agency.
    I am honored to appear beside Director Clapper and Under 
Secretary Lettre and I applaud them both for their many years 
of public service. It has been a true honor, gentlemen.
    When we last met in September, I discussed the changing 
cyber threat environment, and today I look forward to further 
discussing this complex issue. Of course, some aspects of what 
we do must remain classified to protect our Nation's security. 
Today I will limit my discussion to those in the public domain.
    We have seen over the course of the last year how this 
cyber threat environment is constantly evolving. We have all 
come to take for granted the interconnectivity that is being 
built into every facet of our lives. It creates opportunities 
and vulnerabilities. Those who would seek to harm our fellow 
Americans and our Nation utilize the same Internet, the same 
communications devices, and the same social media platforms 
that we, our families and our friends here and around the world 
use. We must keep pace with such changes in order to provide 
policymakers and our operational commanders the intelligence 
and cyber capabilities they need to keep us safe. That means 
understanding our adversaries to the best of our ability and 
understanding what they mean to do and why. We are watching 
sophisticated adversaries involved in criminal behavior, 
terrorism planning, malicious cyber activities, and even 
outright cyber attacks. While this is a global problem, we have 
also recently witnessed the use of these tactics here at home.
    The statement for the record that we have provided jointly 
to this committee covers the threat picture worldwide, but I 
know this hearing today will inevitably focus on reports of 
interference in our recent elections. I echo Director Clapper 
in saying that we will await the findings of the just-completed 
intelligence review ordered by the President and defer our 
comments on its specifics until after that review is shared 
with our leaders and congressional overseers.
    I do want to add, however, that over this last year, NSA 
and Cyber Command have worked extensively with our broader 
government partners to detect and monitor Russian cyber 
activity. The hacking of organizations and systems belonging to 
our election process is of great concern, and we will continue 
to focus strongly on this activity.
    For NSA's part, we focus on the foreign threat actor in 
foreign spaces, but we share our information as readily as 
possible with the rest of our partners in the Department of 
Defense, the intelligence community, and Federal law 
enforcement, as well as others within the U.S. Government and 
the private sector.
    As you know, Russian cyber groups have a history of 
aggressively hacking into other countries' government 
infrastructure and even election systems. As I have indicated, 
this will remain a top priority for NSA and U.S. Cyber Command.
    In this changing threat environment, I would like to take 
this opportunity to emphasize the importance of improving 
cybersecurity and working related issues across public and 
private sectors. We continue to engage with our partners around 
the world on what is acceptable and unacceptable behavior in 
cyberspace, and we clearly are not where we want to be, nor 
where we need to be in this regard.
    We continue to make investments in technologies and 
capabilities to improve detection of malicious cyber activities 
and make it more difficult for malicious cyber actors intending 
to do us harm. Combating cyber threats take more than 
technology. It takes talented, motivated people, and we are 
investing more than ever in the recruitment and retention of a 
skilled workforce that is knowledgeable, passionate, and 
dedicated to protecting the Nation for the safety of our 
citizens and of our friends and allies around the world.
    Innovation is one of the key tenets of NSA and Cyber 
Command and we need to invigorate the cyber workforce that 
think creatively about challenges that do not ascribe to 
traditional understandings of borders and boundaries. This 
remains a key driver and a key challenge as we look to the 
future.
    Cyber Command is well along in building our cyber mission 
force, deploying teams to defend the vital networks that 
support DOD operations, to support combatant commanders in 
their missions worldwide, and to bolster DOD's capacity and 
capabilities to defend the Nation against cyber attacks of 
significant consequence.
    The organizations I lead, the U.S. Cyber Command and the 
National Security Agency, have provided intelligence, expert 
advice, and tailored options to the Nation's decision-makers in 
response to recent events. Much of their activity can only be 
discussed in classified channels, but I must say I am proud of 
what both organizations have accomplished and will accomplish, 
even as we acknowledge we have to do more.
    I look forward to your questions.
    Finally, on one personal note, I apologize to all of you. I 
have an ongoing back issue, and if I have to stand up in the 
course of this time period, please do not take that as a sign 
of disrespect in any way. I guess I am just getting older.
    That is all I have for you, sir.
    Chairman McCain. I know how you feel.
    [Laughter.]
    [The joint prepared statement of Director Clapper, Mr. 
Lettre, and Admiral Rogers follows:]

    Joint Prepared Statement by The Honorable James R. Clapper, The 
         Honorable Marcel Lettre and Admiral Michael S. Rogers
                              introduction
    Chairman McCain, Vice Chairman Reed, and Members of the Committee 
thank you for the invitation to offer the testimony of the Department 
of Defense and the Intelligence Community on cyber threats to U.S. 
national security. Our statement reflects the collective insights of 
the Intelligence Community's extraordinary men and women whom we are 
privileged to lead. We in the Intelligence Community are committed 
every day to provide the nuanced, multidisciplinary intelligence that 
policymakers, warfighters, and domestic law enforcement personnel need 
to protect American lives and America's interests anywhere in the 
world.
    The order of the topics presented in this statement does not 
necessarily indicate the relative importance or magnitude of the threat 
in the view of the Intelligence Community.
    Information available as of 1 January 2017 was used in the 
preparation of this assessment.
                     joint statement for the record
    Information and communication technologies play an increasing role 
in the security of the United States. Cyberspace is both a resource on 
which our continued security and prosperity depends, and a globally 
contested medium within which threats manifest themselves. As their 
cyber capabilities grow, our adversaries are demonstrating a 
willingness to use cyberspace as a platform for espionage, attack, and 
influence. Foreign Intelligence Entities continue to quietly exploit 
our nation's public and private sectors in the pursuit of policy and 
military insights sensitive research, intellectual property, trade 
secrets, and personally identifiable information.
    Cyber threats have already challenged public trust and confidence 
in global institutions, governance, and norms, while imposing costs on 
the global economy. These threats pose an increasing risk to public 
safety, as cyber technologies are integrated with critical 
infrastructure in key sectors. Adversaries also continue to use cyber 
operations to undermine U.S. military and commercial advantage by 
hacking into U.S. defense industry and commercial enterprises. The 
breadth of cyber threats posed to U.S. national and economic security 
has become increasingly diverse, sophisticated, and serious, leading to 
physical, security, economic, and psychological consequences.
    Despite ever-improving cyber defenses, nearly all information, 
communication networks, and systems will be at risk for years to come 
from remote hacking to establish persistent covert access, supply chain 
operations that insert compromised hardware or software, malicious 
actions by trusted insiders, and mistakes by system users. In short, 
the cyber threat cannot be eliminated. Rather, cyber risk must be 
managed in the context of overall business and operational risk. At 
present, however, the risk calculus some private and public sector 
entities employ does not adequately account for foreign cyber threats 
or systemic interdependencies between different critical infrastructure 
sectors.
    We assess that some countries might be willing to explore limits on 
cyber operations against certain targets, although few are likely to 
support total bans on the development of offensive capabilities. Many 
countries view cyber capabilities as a useful foreign policy tool that 
also is integral to their domestic security, and will continue 
developing these capabilities. Some also remain undeterred from 
conducting reconnaissance, espionage, and even preparation for attacks 
in cyberspace.
                         physical consequences
    Our adversaries have capabilities to hold at risk U.S. critical 
infrastructure as well as the broader ecosystem of connected consumer 
and industrial devices known as the ``Internet of Things.'' Security 
researchers continue to discover vulnerabilities in consumer products 
including automobiles and medical devices. Examples of cyber incidents 
with real world consequences include a cyber attack on a Ukrainian 
power network in 2015 that caused power outages for several hours and a 
``ransomware''--software designed to block a user's access to data 
sometimes by encrypting it--infection that forced a hospital in the 
United Kingdom in late 2016 to cancel scheduled medical procedures, 
divert trauma patients to other hospitals, and impact access to 
essential services such as blood transfusions. If adversaries achieve 
the ability to create significant physical effects inside the United 
States via cyber means, this would provide them new avenues for 
coercion and deterrence.
                  commercial and security consequences
    Our adversaries continue to use cyber operations to undermine U.S. 
military and commercial advantage by hacking into U.S. defense industry 
and commercial enterprises in the pursuit of scientific, technical, and 
business information. Examples include theft of data on the F-35 Joint 
Strike Fighter, the F-22 Raptor fighter jet, and the MV-22 Osprey. This 
espionage reduces our adversaries' costs and accelerates their weapon 
systems development programs, enables reverse-engineering and 
countermeasures development, and undermines U.S. military, 
technological, and commercial advantage. In addition, adversaries often 
target personal accounts of government and industry officials as well 
as their close associates to enable cyber operations.
                       psychological consequences
    The impact of cyber threats extends beyond the physical, security 
and commercial realms. Online information operations and manipulation 
from both states and non-state actors can distort the perceptions of 
the targeted victim and other audiences through the anonymous delivery 
of manipulative content that seeks to gain influence or foment 
confusion and distrust. Information taken through cyber espionage can 
be leaked intact or selectively altered in content. For example, 
Russian actors have seeded falsified information into social media and 
news feeds and websites in order to sow doubt and confusion, erode 
faith in democratic institutions, and attempt to weaken Western 
governments by portraying them as inherently corrupt and dysfunctional.
                  cyber policy, diplomacy, and warfare
    Foreign Cyber Policies. National and domestic security interests 
are an important component of global Internet policy, as is a robust 
and stable global digital economy and the free flow of information 
online. As foreign countries seek to balance security, economic growth, 
and interoperability objectives, many are implementing new laws and 
technical changes to monitor and control access to information within 
and across their borders and to control user access through means such 
as restrictions on encryption and steps to reduce anonymity online.
    However, these states will probably not significantly erode the 
overall global connectivity of the Internet. Furthermore, some state 
information control efforts will almost certainly be challenged by a 
broad coalition of states and non-state cyber stakeholders, including 
innovative technologists, industry leaders, privacy advocates, hackers, 
and others with an interest in opposing censorship or government 
control of cyberspace.
    Diplomacy. In 2015, following a China-United States bilateral joint 
statement on this issue, G-20 leaders affirmed that that no country 
should conduct or support cyber-enabled theft of intellectual property 
with the intent of providing competitive advantages to companies or 
commercial sectors. U.S. diplomatic efforts continue to focus on the 
promotion of a strategic framework of international cyber stability 
during peacetime and during armed conflict that is built on three 
pillars: global affirmation of the applicability of existing 
international law to State activity in cyberspace; the development of 
international consensus on certain additional voluntary, nonbinding 
norms of responsible State behavior in cyberspace during peacetime; and 
the development and implementation of practical confidence-building 
measures to facilitate inter-State cooperation on cyber-related 
matters. The promotion of this framework is complicated by efforts to 
build and enhance international cooperation to address shared threats. 
These efforts also are hampered by the lack of consensus over key 
concepts such as what constitutes an armed attack, act of aggression, 
or the use of force in cyberspace. Furthermore, countries do not widely 
agree on how such principles of international law as proportionality of 
response or even the application of sovereignty apply in cyberspace.
    Cyber Warfare. As of late 2016 more than 30 nations are developing 
offensive cyber attack capabilities. The proliferation of cyber 
capabilities coupled with new war-fighting technologies will increase 
the incidence of standoff and remote operations, especially in the 
initial phases of conflict. Cyber attacks against critical 
infrastructure and information networks also will give actors a means 
of bypassing traditional defense measures and minimizing the advantage 
of geography to impose costs directly on their targets from a distance. 
Russian officials, for example, have noted publicly that initial 
attacks in future wars might be made through information networks in 
order to destroy critically important infrastructure, undermine an 
enemy's political will, and disrupt military command and control. 
Adversaries equipped with similar offensive cyber capabilities could be 
prone to preemptive attack and rapid escalation in a future crisis, 
because both sides would have an incentive to strike first. Cyber 
attacks against private sector networks and infrastructure could 
provoke a cyber-response by the intended target, raising the 
possibility of corporate and other non-state actor involvement in 
future cyber conflict and blurring the distinction between state and 
non-state action. Protecting critical infrastructure, such as crucial 
energy, financial, manufacturing, transportation, communication, and 
health systems, will become an increasingly complex national security 
challenge.
                          cyber threat actors
    Russia. Russia is a full-scope cyber actor that poses a major 
threat to U.S. Government, military, diplomatic, commercial, and 
critical infrastructure and key resource networks because of its highly 
advanced offensive cyber program and sophisticated tactics, techniques, 
and procedures. In recent years, we have observed the Kremlin assume a 
more aggressive cyber posture. Russian cyber operations targeted 
government organizations, critical infrastructure, think tanks, 
universities, political organizations, and corporations often using 
spearphishing campaigns. In foreign countries, Russian actors conducted 
damaging and/or disruptive cyberattacks, including attacks on critical 
infrastructure networks. In some cases Russian intelligence actors have 
masqueraded as third parties, hiding behind false online personas 
designed to cause the victim to misattribute the source of the attack. 
We assess that only Russia's senior-most officials could have 
authorized the recent election-focused data thefts and disclosures, 
based on the scope and sensitivity of the targets. Russia also has used 
cyber tactics and techniques to seek to influence public opinion across 
Europe and Eurasia. Looking forward, Russian cyber operations will 
likely target the United States to gather intelligence, support Russian 
decisionmaking, conduct influence operations to support Russian 
military and political objectives, and prepare the cyber environment 
for future contingencies.
    China. Beijing continues to conduct cyber espionage against the 
United States Government, our allies and U.S. companies. Since the 
China-United States cyber commitments in September 2015, private-sector 
security experts continue to detect cyber activity from China, although 
at reduced levels and without confirmation that stolen data was used 
for commercial gain. Beijing has also selectively used cyber attacks 
against foreign targets that it probably believes threaten Chinese 
domestic stability or regime legitimacy. China continues to integrate 
and streamline its cyber operations and capabilities into a dedicated 
cyber element that will be increasingly difficult to detect or counter.
    Iran. Tehran continues to leverage cyber espionage, propaganda, and 
attacks to support its security priorities, influence events and 
perceptions, and counter threats--including against United States 
allies in the Middle East. Iran has also used its cyber capabilities 
directly against the United States, as in distributed denial of service 
attacks in targeting the United States financial sector in 2012-13.
    North Korea. Pyongyang remains capable of launching disruptive or 
destructive cyber attacks to support its political objectives, as 
demonstrated by its destructive attack against Sony Pictures 
Entertainment in 2014. South Korean officials have also concluded that 
North Korea was probably responsible for the 2014 compromise, 
exfiltration, and disclosure of data from a South Korean nuclear plant, 
and for numerous denial of service and data deletion attacks.
    Terrorists. Terrorists groups--to include al Qaeda, Hizballah, 
HAMAS, and the Islamic State of Iraq and the Levant (ISIL)--continue to 
use the Internet to collect intelligence, coordinate operations, raise 
funds, spread propaganda, and incite action. Groups such as the Taliban 
also use Internet-based technology for similar purposes. While not as 
sophisticated as some state actors, Hizballah and HAMAS will continue 
to build on their cyber successes inside and outside the Middle East. 
ISIL personnel will continue to seek opportunities to target and 
release sensitive information about United States citizens in an effort 
to spur ``lone-wolf' attacks as demonstrated in their 2015 operations 
that disclosed potential targeting information about U.S. military 
personnel.
    Criminals. Cybercrime remains a persistent and prevalent malicious 
activity in cyberspace. Criminals develop and use sophisticated cyber 
tools for a variety of purposes including theft, extortion, and 
facilitation of other criminal activity. ``Ransomware has become a 
particularly popular and effective tool for extortion, one for which 
few options for recovery or remediation are available if the victim has 
not previously backed up the affected data. In 2016, criminals 
employing ransomware targeted the medical sector, disrupting patient 
care and undermining public confidence in medical institutions. Some 
criminals use markets conducted on the so-called dark web to sell or 
lease malware to anyone willing to pay, including state and non-state 
actors.
                               responses
    Perhaps the most significant counterintelligence threat to our 
nation, both currently and in the future, involves the rapid 
development and proliferation of disruptive, advanced technologies that 
provide adversaries with capabilities that even just a few years ago 
were not considered plausible. Sophisticated technical collection 
through a variety of means is available to more adversaries than ever 
before and can occur virtually anywhere and involve telephones, 
computers, Internet, cell phones, wired and wireless networks, as well 
as conversations and activities in offices, homes, vehicles, and public 
spaces. Disruptive technology is being built and fielded at an 
unprecedented rate, and we are already dealing with the consequences of 
a hyperconnected world. The complexity of technological advances, both 
in the tools themselves and the methods used to compromise them, 
necessitates a much greater technical and cyber literacy than what was 
required of us even five years ago.
    As we face this ever-changing cyber threat environment, the 
Intelligence Community and U.S. Cyber Command have been hardening 
internal U.S. Government systems, increasing knowledge and awareness 
among industry and the community, and engaging more closely with a host 
of partners to share best practices and threat information. The 
National Security Agency, in particular, has taken aggressive measures 
to hire and retain the cybersecurity talent needed to operate in this 
challenging environment. In addition, Cyber Command leverages the 
capacity and capabilities of 133 Cyber Mission Force teams that are 
responsible for synchronizing and executing cyber operations to support 
combatant command operations, and for the defense and security of 
service component and Department of Defense Information Networks. Cyber 
Command has established close working relationships with both 
international and interagency partners and stands ready to support a 
whole of nation response. The National Counterintelligence and Security 
Center's (NCSC) innovative public awareness campaign has resulted in 
placing numerous short informative videos on its public-facing website 
concerning cyber and associated threats, which are of immediate, 
practical use to federal, industry and community partners alike. NCSC 
also established a National Counterintelligence Task Force for Critical 
Infrastructure to coordinate counterintelligence efforts to mitigate 
this threat.
    While many government organizations can make a unique contribution 
to securing our networks and the nation, no one agency has the 
capability to do so alone. The security of systems and networks is not 
the responsibility of one person or one agency or one industry, but 
rather requires a whole of nation response and a culture of 
cybersecurity among all users of the information space across private 
and public sectors.
    The Intelligence Community and U.S. Cyber Command have been working 
to provide the Secretary of Defense and DOD policymakers with effective 
options for operational cyber responses to threats to U.S. interests. 
This remains a work in progress, and we welcome the assistance of this 
Committee in ensuring that we have the resources and authorities to 
succeed in this mission.
                               conclusion
    In summary, the breadth of cyber threats to U.S. national and 
economic security has become increasingly diverse, sophisticated, and 
dangerous. Over the next five years, technological change will only 
accelerate the intersection of cyber and physical devices, creating new 
risks. Adversaries are likely to further explore cyber-enabled 
psychological operations and may look to steal or manipulate data to 
gain strategic advantage or undermine confidence. The Intelligence 
Community has been vigilant in the detecting and sharing of cyber 
threat information with partners such as U.S. Cyber Command, as well as 
our nation's network protection organizations such as the Department of 
Homeland Security, and will continue to do so for the safety of our 
nation.

    Chairman McCain. Director, I just have to--General Clapper, 
I just have to mention the name, Mr. Assange, has popped up, 
and I believe that he is the one who is responsible for 
publishing names of individuals that work for us that put their 
lives in direct danger. Is that correct?
    Director Clapper. Yes, he has.
    Chairman McCain. Do you think that there is any credibility 
we should attach to this individual given his record of----
    Director Clapper. Not in my view.
    Chairman McCain. Not in your view.
    Admiral Rogers?
    Admiral Rogers. I second those comments.
    Chairman McCain. Thank you.
    For the record, on October 7th, the Homeland Security and 
Office of the Director of National Intelligence--their 
assessment was that the United States intelligence community is 
confident that the Russian Government directed the recent 
compromise of emails from United States persons and 
institutions, including from United States political 
organizations. It goes on to say these thefts and disclosures 
are intended to interfere with the United States election 
process. Quote, such activity is not new to Moscow. Russians 
have used similar tactics and techniques across Europe and 
Eurasia. Quote, based on the scope and sensitivity of these 
efforts, only Russia's senior most officials could have 
authorized these activities.
    General Clapper, those are still operable and correct 
statements?
    Director Clapper. Yes, Chairman McCain, they are. As I 
indicated in my statement, we stand actually more resolutely on 
the strength of that statement that we made on the 7th of 
October.
    Chairman McCain. I thank you.
    Really what we are talking about is if they succeeded in 
changing the results of an election, which none of us believe 
they were, that would have to constitute an attack on the 
United States of America because of the effects if they had 
succeeded. Would you agree with that?
    Director Clapper. First, we cannot say--they did not change 
any vote tallies or anything of that sort. We had no way of 
gauging the impact that--certainly the intelligence community 
cannot gauge the impact it had on choices the electorate made. 
There is no way for us to gauge that.
    Whether or not that constitutes an act of war I think is a 
very heavy policy call that I do not believe the intelligence 
community should make. But it certainly would carry in my view 
great gravity.
    Chairman McCain. Thank you.
    Admiral Rogers, have you seen this problem in your position 
getting worse or better? In other words, it is my information 
that their techniques have improved, their capabilities 
improved. The degree of success has improved. Is that your 
assessment?
    Admiral Rogers. I have publicly said before that the 
Russians are a peer competitor in cyber. If you look broadly 
beyond the Russians to cyber at large, the level of capability 
of nation states and actors around the world continues to 
increase. I cannot think of a single significant actor out 
there who is either decreasing their level of investment, 
getting worse in their tradecraft or capability, or in any way 
backing away from significant investments in cyber.
    Chairman McCain. With all due respect to you, Mr. 
Secretary, I have not seen a policy. In other words, I do not 
think any of our intelligence people know what to do if there 
is an attack besides report it. I do not think that any of our 
people know, if they see an attack coming, what specific 
actions should be taken. Maybe I am missing something, but I 
have asked time after time, what do you do in the case of an 
attack? There has not been an answer. There has not been an 
answer. I believe that unless we have specific instructions to 
these wonderful men and women who are doing all this work, then 
we are going to be bystanders and observers. I am glad to hear 
you respond to that.
    Mr. Lettre. Mr. Chairman, you are right that we have a lot 
more work to do to put the right deterrence and response 
framework in place on cyber. This is somewhat of a new domain 
of operations and in some cases warfare. In my personal 
opinion, the next administration would be well served to focus 
very early on those questions of continuing to develop our 
overarching policy, a comprehensive approach, and an 
increasingly robust and refined deterrence framework.
    Chairman McCain. I thank you.
    Finally, Director and Admiral, would it make your job 
easier if you did not have to report to seven different 
committees?
    Director Clapper. Chairman McCain, my hands have been 
slapped before when I ventured into the delicate area of 
congressional jurisdiction. In the remaining 15 days that I am 
in office, I do not think I am going to speak to that. 
Afterwards that might be different.
    Chairman McCain. Well, we will look forward to calling you 
back.
    [Laughter.]
    Chairman McCain. Admiral Rogers?
    Admiral Rogers. Can I second the comments of the Director 
of National Intelligence?
    Chairman McCain. But it does make it difficult, does it 
not? It is not exactly stove-piping, but overlapping 
jurisdictions I think makes your job a little harder, does it 
not, I mean in all candor, Admiral?
    Admiral Rogers. The way I would phrase is I think clearly 
an integrated approach is a key component of our ability to 
move ahead here. I would say that in the Government, in the 
private sector, there is no particular one slice where that is 
not applicable.
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    General Clapper, you responded to the chairman that in 
October you and the Director of Homeland Security concluded 
that the Russian Government intervened in the election. Admiral 
Rogers also seconded that view. That is also today the view, 
for the record, of the FBI [Federal Bureau of Investigations] 
and the Central Intelligence Agency [CIA], in fact, all the 
intelligence community. Is that correct?
    Director Clapper. Yes. The forthcoming report is done 
essentially by those three agencies, CIA, FBI, and NSA.
    Senator Reed. The same conclusion with respect to the 
involvement of high-level Russian authorities is shared by all 
these agencies?
    Director Clapper. Yes.
    Senator Reed. The chairman just noticed the legislative 
compartmentalization. Is that reflected also in terms of 
operations, in terms of, for example, Admiral Rogers, if you 
through NSA or through your sources detect something that is 
obviously a disruption, something that is patently wrong, you 
can communicate to the FBI or law enforcement, but there is no 
mechanism to make things happen administratively. Is that fair?
    Admiral Rogers. There is certainly a process, and in fact, 
there have been several instances that I can think of in the 
last 18 months where we have run through that exact same 
scenario. Intelligence, as it does in many other areas, other 
domains, will detect incoming activity of concern. We, NSA, 
will partner with FBI, the Department of Homeland Security, 
U.S. Cyber Command to ensure the broader government, the 
Department of Defense and FBI in its relationship with the 
private sector.
    But the biggest frustration to me is speed, speed, speed. 
We have got to get faster. We have got to be more agile. For me 
at least within my span of control, I am constantly asking the 
team what can we do to be faster and more agile. How do we 
organize ourselves? What is the construct that makes the most 
sense? We cannot be bound by history and tradition here, so to 
speak. We have to be willing to look at alternatives.
    Senator Reed. Thank you.
    General Clapper, one of the aspects of this Russian hacking 
was not just disseminating information that they had exploited 
from computers, but also the allegations of fake news sites, 
fake news stories that were propagated. Is that accurate, or is 
that one aspect of this problem?
    Director Clapper. Yes. Without getting too far in front of 
the headlights of our rollout next week to the Congress, this 
was a multifaceted campaign. The hacking was only one part of 
it, and it also entailed classical propaganda, disinformation, 
fake news.
    Senator Reed. Does that continue?
    Director Clapper. Yes.
    Senator Reed. The Russians particularly are very astute at 
covering up their tracks. It appears that they were not quite 
as diligent or--let me ask a question.
    Do you believe that they made little attempts to cover up 
what they were doing as a way to make a point politically?
    Director Clapper. Well, again, without preempting the 
report, that is classical tradecraft that the Russians have 
long used. Particularly when they are promulgating so-called 
disinformation, they will often try to hide the source of that 
or mask it to deliberately mask the source.
    Senator Reed. Let me just ask one more time. In this 
situation, though, were there attempts to mask their 
involvement, very elaborate and very, very sophisticated, or 
was it just enough to have plausible deniability?
    Director Clapper. Sir, I would rather not get into that. 
That kind of edges into the sources and methods and I would 
rather not speak to that publicly.
    Senator Reed. Fair enough.
    These activities are ongoing now in Europe as Europe 
prepares for elections. Is that a fair assumption?
    Director Clapper. It is.
    Senator Reed. Thank you.
    Yesterday, the ``Wall Street Journal'' indicated that the 
President-elect is considering changes to the intelligence 
community. Have you at all, as the experts in this field, been 
engaged in any of these discussions, deliberations, advice?
    Director Clapper. No, we have not.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    I heard this morning that a lot of the news media was 
characterizing this as a hearing on Russian hacking, and 
actually it is on foreign cyber threats to the United States. I 
am trying to cover a couple of the other ones.
    First of all, I received something this morning, Director 
Clapper, that I was very glad to read. I have often said that 
the threats we are facing today are greater. I look wistfully 
back at the days of the Cold War. Your statement that was in 
print this morning said sometimes all of this makes me long for 
the Cold War when the world essentially had two large mutually 
exclusive--and so forth.
    I think it is important that we talk about this because the 
general public is not aware of the nature of the threats that 
are out there that have not been out there before.
    Admiral--no. Director Clapper, we have had a lot of most 
damaging cyber attacks perpetrated against the American people. 
When the chairman gave his opening statement, he singled out 
three or four of them. One of them was the OPM [Office of 
Personnel Management] incident. That was 2014 and 2015, Office 
of Personnel Management. It was a breach and threat to personal 
information, birthdates, home addresses, Social Security 
numbers of over 22 million individuals.
    I would like to ask you what action was taken after that 
and what kind of effect that might have had on the behavior of 
the Chinese.
    Director Clapper. Well, the major action that we took, of 
course, was remediation in terms of advising people of what the 
potential risks were. And, of course, there was a lot of work 
done. NSA was deeply involved in this in enhancing or improving 
the cybersecurity posture of OPM, and Admiral Rogers might 
speak to that.
    I would say that this was espionage. It was not an attack 
per se. And, of course, I am always a bit reticent about people 
who live in glass houses should not throw publicly too many 
rocks. There is I think a difference between an act of 
espionage, which we conduct as well and other nations do, 
versus an attack.
    Mike, do you want to comment?
    Admiral Rogers. Just as a broader point, I think the OPM 
issue highlights that massive data concentrations increasingly 
have value all of their own. What do I mean by that? I can 
remember 10 years ago earlier in my time in cyber thinking to 
myself large databases like OPM are so large. The ability of an 
intruder, an external actor to actually access, fully extract, 
and bore their way through millions upon millions of records 
would be difficult. But with the power of big data analytics, 
large data concentrations now become increasingly attractive 
targets because the ability to mine that data for insights, 
which is what we think drove this action in the first place, 
becomes more and more easily done.
    Senator Inhofe. Okay. I appreciate that very much.
    In your joint statement--by the way, I like the idea of 
joint statements. It makes our questioning a lot easier.
    You talk about the--you end up stating through one of your 
paragraphs, in short, cyber threat cannot be eliminated. 
Rather, cyber threat must be managed. It is interesting that in 
the Edison Electric Institute--it is a publication. I think it 
just came in this morning--they say exactly the same thing. 
This seems to be one of the rare cases where we have government 
and industry working together. Their statement was the electric 
power industry recognizes it cannot protect all assets from all 
threats and instead must manage risk.
    Now, they go on to describe working together with 
government, and they say the industry's security strategy is 
constantly evolved and are closely coordinated with the Federal 
Government through a partnership called the Electricity 
Subsector Coordinating Council, ESCC. Can you comment? Are we 
looking at getting some success out of that?
    Director Clapper. I think it is emblematic of a lot of work 
that the intelligence community has done, the Department of 
Homeland Security in engaging with each of the, I think, 16 key 
infrastructure sectors in this country and providing--what we 
have embarked on is providing them, tailored to each one of 
those sectors, intelligence estimates of what the threats and 
vulnerabilities are in order to help them take measures to 
enhance their cybersecurity.
    I think the major point here is that if there is any 
connection whatsoever with the Internet, there is an inherent 
security vulnerability, and we have to manage the risk that is 
generated accordingly with full knowledge of that fact. If 
there is an Internet connection, there is always going to be a 
vulnerability.
    Mike?
    Admiral Rogers. I would echo that. I think part of our 
challenge is our defensive strategy must be two-pronged. We 
have to spend time making it difficult for people to gain 
access, but we must acknowledge that despite our best efforts, 
there is a probability that they are still going to get in.
    What do you do? As a guy who defends networks on the Cyber 
Command side, I would tell you it is a whole different process, 
methodology, prioritization, and risk approach in dealing with 
someone who is already in your network versus trying to keep 
them out in the first place. We have to do both.
    Senator Inhofe. I appreciate that. My time has expired. I 
have one last question just for the record. You cannot answer 
it at this time.
    But a year ago--it is a year and 2 months ago I think it 
was, Admiral Rogers--you made the statement before this 
committee that, quote, we have peer competitors in cyberspace 
and some of them have already hinted that they hold the power 
to cripple our infrastructure and set back our standard of 
living if they choose. I would like for the record if you could 
just kind of outline which of our peer competitors might be the 
closest to choosing to use their power.
    Admiral Rogers. As I have publicly said before, the 
Russians are the peer competitor to us. But I look at other 
nations. You look at China, for example, and the level of 
capability and investment they are making. I am watching their 
abilities rise significantly. Iran, North Korea, currently at a 
moderate level. But clearly the level of investment, the 
capability we are seeing, and their willingness to employ cyber 
in some very aggressive ways that would be way beyond our 
normal risk calculus is of concern.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Nelson?
    Senator Nelson. I think it is the general assumption that 
you all have said that our systems can be invaded that has the 
American people, we as policymakers concerned, but the average 
American concerned that there is no privacy anymore.
    General, do you think in the report next week that you all 
will ascribe a motivation to Putin for the election attempt?
    Director Clapper. Yes, we will ascribe a motivation. I 
would rather not, again, preempt the report.
    Senator Nelson. Understood.
    Well, then will you discuss after the report what is 
sufficient in the future to impose enough cost to make them 
stop this kind of activity?
    Director Clapper. No. If we are going to speak to that, 
that would be separate from the report. What the report will 
include, per the President's tasking, was a section contributed 
by the Department of Homeland Security and NIST [National 
Institute of Standards and Technology], I believe, on best 
practices for defending, but it does not speak to that, which 
is really out of our lane. That is a policy call.
    Senator Nelson. We are now talking about deterrence, and as 
one of you said in your testimony, it is not like the nuclear 
standoff of mutually assured destruction because we do not have 
a particular deterrence now. Would you discuss that?
    Director Clapper. The point I was trying to make is that in 
the case of nuclear deterrence, there are instruments you can 
see, feel, touch, measure, weaponry. We have had a 
demonstration a long time ago of the impact of nuclear 
weaponry. That is what creates both the physical substance of 
deterrence, as well as the psychology. The problem with the 
cyber domain--it does not have those physical dimensions that 
you can measure, see, feel, and touch as we do with nuclear 
deterrence.
    Senator Nelson. Let me give you an example. Help us 
understand had the supposed invasion into the Vermont utility 
been in fact an invasion by a foreign power and ascribed to 
that was shutting it down, if that had been the case, what 
would be some of the options we would do.
    Director Clapper. Well, again, this would be a--as I 
understand it, by the way, it was not. But had it been from the 
malware planted by a foreign power, I think that is something 
that would be very situational dependent as to what to do about 
it. As I indicated in my remarks, perhaps a cyber reaction to a 
cyber act may not be the best course of action. Some other form 
of national power. Sanctions is what we have traditionally 
used.
    As I also indicated, the problem, at least for me, is-- and 
I will ask others to speak if they want to--if you do retaliate 
in a cyber context, not knowing exactly what counter-
retaliation you will get back. We go through all kinds of 
exquisite thought processes on deciding how to react. We try to 
be very surgical, very precise. We try to gauge what the second 
order or unintended consequences might be. I do not think 
others are similarly disposed to consider such precision and 
such exactness when they respond. There is always that issue of 
counter-retaliation, ergo my brief mention that it is in my 
view best to consider all instruments of national power.
    Senator Nelson. I think that is what is concerning us. 
Could we, the United States--do we have the ability that we 
could make it so tough on North Korea with a cyber attack that 
it would deter them from some of their strange behavior?
    Director Clapper. Not necessarily via a direct cyber 
reaction, given the difficulty of gaining access to their cyber 
networks.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Thank you.
    Director Clapper, you are pretty far along on the report 
that will be released next week, obviously. How far along are 
you? What do you lack and how will this be released? Will it be 
in a classified format? Will you be willing to testify in an 
opening hearing like this, or will we need to go down the SCIF 
to hear this?
    Director Clapper. What is planned is a series of briefings 
in the Congress. I think I have four more hearings to do, first 
with our oversight committees, which will be closed hearings I 
believe. Then there will be all-House, all-Senate hearings I 
believe next week as we roll out a version of the report----
    Senator Wicker. Those will be classified.
    Director Clapper.--followed by an unclassified version.
    Senator Wicker. I see. The public will not hear sources and 
methods, but you think it will be fairly convincing without 
going beyond what----
    Director Clapper. I assure you that I intend to push the 
envelope as much as I can particularly on the unclassified 
version because I think the public should know as much about 
this as possible. This is why I felt very strongly about the 
statement we made in October. We will be as forthcoming as we 
can, but there are some sensitive and fragile sources and 
methods here, which is one reason why we are reticent to talk 
about it in this setting.
    Senator Wicker. You have said that, and I expect you will 
be challenged with some very talented questioners up and down 
the dais here today on that.
    I would have to support what Senator Nelson has said. As 
regrettable and reprehensible as the hacking of political 
parties is, I do think Senator Nelson has touched on really the 
larger issue which really is the subject matter of this hearing 
and that is what the real threats are. It concerns me that we 
really do not know what the deterrence ought to be. I wonder at 
what level are conversations taking place within the 
administration or within the intelligence community about what 
is appropriate in terms of a response. You mentioned countering 
cyber with cyber is not necessarily the number one solution. 
Secretary Lettre mentioned that we should impose costs, and 
perhaps after you answer, I can ask him to expound on that 
also.
    Director Clapper. Well, we have had many discussions in the 
White House situation room at Deputies Committee, Principals 
Committee, and NSC [National Security Council] meetings about 
what to do when we have these attacks. I think the Sony attack 
by the North Koreans is a case in point. There you get into the 
complexities of if you launch a counter cyber attack--I want to 
be careful here, but you have to use some other nation's 
infrastructure in order to mount that attack. That gets into, 
as I have learned, complex legal issues involving international 
law. The judgment was to impose some other costs other than a 
direct cyber retaliation.
    Senator Wicker. Did you recommend the President's 
sanctions? Were his actions in response to the Russian hacking 
part of your recommendation, or did that come from someone 
else?
    Director Clapper. Well, without going into internal 
decision-making, I think that was a consensus interagency view.
    Senator Wicker. Secretary Lettre, what about imposing 
costs? What did you mean by that?
    Mr. Lettre. Well, as part of an approach to deterrence that 
takes each case as it comes up case by case, we need to look at 
ways to respond--first deter and then respond to attacks at a 
time and a place of our choosing that favors advantages that we 
have as we use all of the instruments available. We look to 
deny objectives and then impose costs, as you indicated, 
Senator.
    Imposing costs really can come from things like were 
announced last week with the sanctions that were applied in the 
case of the Russian hacking situation, but they can go more 
broadly than that. From the military's perspective, we are 
concerned not just about Russia's cyber hacking, but also about 
a range of aggressive actions by Russia across multiple regions 
of the globe. We look to impose costs on Russia by a range of 
measures across multiple regions in partnership with our allies 
through NATO [North Atlantic Treaty Organization], where we 
can, to push back on Russian actions and deter future 
aggressive actions. That is a bit of what we mean by imposing 
costs here.
    Senator Wicker. Thank you.
    Chairman McCain. It seems that every attack is handled on a 
case-by-case basis, and that is not a strategy.
    Senator McCaskill?
    Senator McCaskill. Thank you.
    I know this will probably confuse you a little bit, General 
Clapper, but review again how long you have been working in 
intelligence.
    Director Clapper. I started in 1963.
    Senator McCaskill. You enlisted in 1963. Correct?
    Director Clapper. No. I enlisted in the Marine Corps in 
1961.
    Senator McCaskill. Then transferred to the Air Force?
    Director Clapper. Right.
    Senator McCaskill. You flew support for combat missions in 
Vietnam?
    Director Clapper. I did two tours in Southeast Asia, one in 
Vietnam in 1965 and 1966, and then I was stationed in Thailand 
flying the reconnaissance missions over Laos and Cambodia in 
1970 and 1971.
    Senator McCaskill. Would you say that your experience in 
the military and especially your service for the Government has 
always been for either political party and apolitical in terms 
of your mission and your job?
    Director Clapper. Absolutely. I have served--I toiled in 
the trenches in intelligence for every President since 
President Kennedy. I have served as a political appointee in 
both Republican and Democratic administrations. I am 
apolitical.
    Senator McCaskill. By the way, without getting into 
classified information, there are thousands of men and women 
who are working in the intelligence community right now, 
General Clapper. Correct?
    Director Clapper. Absolutely.
    Senator McCaskill. Would you say that their experience in 
many instances mirrors yours, in terms of military experience, 
many of them being either Active military or retired military?
    Director Clapper. Yes. A large part of the intelligence 
community workforce are military, and of course, there are many 
former military, either those who completed full careers or 
those who served enlistments briefly and then came to the 
intelligence community as civilians.
    Senator McCaskill. Would you think it any less important 
that we maintain the intelligence community as a foundational, 
apolitical bloc of our country in terms of its protection?
    Director Clapper. I could not feel stronger about exactly 
that. I think it is hugely important that the intelligence 
community conduct itself and be seen as independent, providing 
unvarnished, untainted, objective, accurate, and timely and 
relevant intelligence support to all policymakers, commanders, 
diplomats, et cetera.
    Senator McCaskill. Do, in fact, members of the intelligence 
community engage in life-threatening and very dangerous 
missions every day, particularly as it relates to the war on 
terror?
    Director Clapper. You only need to walk into the lobby of 
CIA and look at the stars on the wall or the front lobby of 
NSA, and the number of intelligence people that have paid the 
ultimate price in the service of their country.
    Senator McCaskill. Let us talk about who benefits from a 
President-elect trashing the intelligence community. Who 
benefits from that, Director Clapper? The American people, them 
losing confidence in the intelligence community and the work of 
the intelligence community? Who actually is the benefactor of 
someone who is about to become commander-in-chief trashing the 
intelligence community?
    Director Clapper. I think there is an important distinction 
here between healthy skepticism, which policymakers, to include 
policymaker number one, should always have for intelligence, 
but I think there is a difference between skepticism and 
disparagement.
    Senator McCaskill. I assume the biggest benefactors of the 
American people having less confidence in the intelligence 
community are in fact the actors you have named today, Iran, 
North Korea, China, Russia, and ISIS.
    Director Clapper. The intelligence community is not 
perfect. We are an organization of human beings, and we are 
prone sometimes to make errors. I do not think the intelligence 
community gets the credit it is due for what it does day in and 
day out to keep this Nation safe and secure in the number of 
plots, just one example, terrorist plots that have been 
thwarted, both those focused on this country and other 
countries.
    Senator McCaskill. I want to thank the chairman and I want 
to thank Senator Graham and others. There have been others I 
can count on maybe a little bit more than one hand who have 
stood up in a nonpolitical way to defend the intelligence 
community over the last few weeks. The notion that the soon-
elected leader of this country would put Julian Assange on a 
pedestal compared to the men and women of the intelligence 
community and the military that is so deeply embedded in the 
intelligence community--I think it should bring about a hue and 
cry no matter whether you are a Republican or a Democrat. There 
should be howls. Mark my word. If the roles were reversed, 
there would be howls from the Republican side of the aisle.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you for that nonpartisan comment.
    [Laughter.]
    Chairman McCain. Director Clapper, how would you describe 
Mr. Assange?
    Director Clapper. How would I describe?
    Chairman McCain. Mr. Assange.
    Director Clapper. Well, he is holed up in the Ecuadorian 
embassy in London because he is under indictment I believe by 
the Swedish Government for a sexual crime. He has, in the 
interests of ostensibly openness and transparency exposed in 
his prior exposures, put people at risk by his doing that. I do 
not think those of us in the intelligence community have a 
whole lot of respect for him.
    Chairman McCain. Admiral?
    Admiral Rogers. I would echo those comments.
    Chairman McCain. Thank you.
    Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today and I do thank 
you for your service.
    Gentlemen, as you all know, about a year ago, Congress 
passed the Cybersecurity Information Sharing Act. Director 
Clapper, could you comment on what steps have been taken to 
implement the act in particular to provide cyber threat 
information in the possession of the Federal Government to non-
government entities?
    Director Clapper. There has been a lot of work done--and 
this is principally through both the FBI and Department of 
Homeland Security--to share more broadly with the private 
sector. Prior to the enactment of this act, I think this has 
been a theme that we have all worked hard. Certainly one of the 
reasons for the creation of the Office of Director of National 
Intelligence was to assume a domestic role as well and to 
promote sharing as much as we can. I think a lot of improvement 
has been made, as I look back over the last 15 years, but there 
is more work to do.
    We have done a lot of work with, for example, fusion 
centers, the 76 or so fusion centers that exist throughout the 
country, to convey more information to them. I have a network 
of 12 domestic DNI [Director of National Intelligence] reps, 
Director of National Intelligence representatives, which are 
FBI special agents in charge. We work through them, those 
instrumentalities, on a regional basis to convey more 
information particularly on cyber threats to State and local 
officials, as well as the private sector.
    Senator Fischer. Thank you, sir.
    Admiral Rogers, what is your assessment of the current 
state of information sharing between the Government and the 
private sector, especially regarding cybersecurity threats? 
More importantly, what is the appropriate level of expectation 
to have with respect to that information sharing?
    Admiral Rogers. In some ways I would characterize it as 
uneven. Some sector relationships, as you heard General Clapper 
talk about, the 16 sectors within the critical infrastructure 
of our Nation--in some sectors, the relationship is very 
mature. Information tends to flow very regularly. Other 
sectors, it is not quite as mature. I think the positive side 
is, with the legislation, we have now developed a framework for 
how we do it. I still am concerned on the Government side. I 
will only speak for NSA and Cyber Command. On the Government 
side, I am not entirely comfortable that the products that I am 
generating are optimized to achieve outcomes for our private 
counterparts. I am always trying to remind our team our success 
needs to be defined by the customer, not what we think is the 
right format or the right things to share.
    Senator Fischer. Do you think there is any additional 
legislation that is going to be required? I guess I am asking, 
what do you need? Do you think there are proper authorities 
that are currently in place, or do we need new legislation? Or 
do you guys just need to improve on your execution of it?
    Admiral Rogers. Probably all of the above, to be very 
honest.
    I look at what are the changes that we are going to need 
collectively to create the workforce of the future. I work 
within the DOD in an intel framework. But I would argue this is 
kind of universal. It does not matter where you are working. 
Where does the structure--what is the recruitment and the 
benefit process that we need to retain and attract a workforce?
    I am curious with the new administration coming in their 
broad view of roles and responsibilities--are they comfortable 
with the current structure? Will their view be that we need to 
fundamentally relook at something different? I would be the 
first to acknowledge, as I previously said this morning, we 
have got to get faster. We have got to get faster.
    Senator Fischer. You know, you have talked about case by 
case and the ad hoc nature of our policies when it comes to 
cyberspace before this committee many, many times, and that has 
been an issue that this committee and the ETC [Emerging Threats 
and Capabilities] Subcommittee in particular has tried to 
address by requiring strategies so that we can deter these 
hostile actors and delegations of authority, a definition of 
what an act of war in cyberspace is. You know, we can go on and 
on. The chairman just mentioned we do not have a strategy. Some 
of us just do not feel there is a strategy that is laid out 
there.
    When you talk about speed and dealing with cyber attacks, I 
assume you are just referring to our agencies in responding to 
attack that is directly upon us. Do you think there needs to be 
any kind of consensus-building on the international stage with 
our allies in order to increase speed, or would that delay it 
even more trying to run this through channels in trying to 
respond quickly? Do we reach out to allies, or do we perform 
our first duty in protecting this country?
    Admiral Rogers. We routinely do that now. You clearly have 
highlighted it is a bit of a double-edged sword. But it goes to 
the point from my perspective, cyber just does not recognize 
many of these boundaries. When you are trying to deal with an 
incident, is this something that is really truly totally 
domestic, or has it originated from somewhere external to our 
Nation? What kind of infrastructure did it pass through? There 
is a whole lot of complexity to this. I apologize. It is not a 
simple binary choice there, even as I acknowledge there are 
tradeoffs.
    Senator Fischer. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman.
    I want to join Senator McCaskill in expressing my 
appreciation for the service of our intelligence community and 
to you, Mr. Chairman, for your very strong and courageous 
statements in support of the work of this committee to give 
credit and credibility to that intelligence community and to 
your statements also about the importance of cyber warfare. It 
is not the first time we have been here on this topic, and you 
have been resolute and steadfast in seeking to elevate public 
awareness and public consciousness about the importance of 
cyber attacks on this country and the threat of cyber warfare.
    I want to explore a little bit why these very demeaning and 
dismissive comments about our intelligence community are so 
dangerous to our Nation. Is it not true, Mr. Clapper, that 
public support for robust responses to cyber attacks on our 
Nation depends on the credibility of our intelligence community 
and dismissing the conclusions, very credible and significant 
conclusions, about the Russian attack undermines public support 
for actions that the President must take to deter and punish 
these kinds of actions?
    Director Clapper. I do think that public trust and 
confidence in the intelligence community is crucial, both in 
this country and I think the dependence that other countries, 
other nations, have on the U.S. intelligence community. I have 
received many expressions of concern from foreign counterparts 
about the disparagement of the U.S. intelligence community or, 
I should say, what has been interpreted as disparagement of the 
intelligence community.
    Senator Blumenthal. Well, there is no question about the 
disparagement. There is no question about the dismissing and 
demeaning of the intelligence community, entirely unmerited. 
Would you agree, in light of your saying that you are even more 
resolute now in your conclusion about Russian involvement in 
this hacking, that comparing it to the judgment made about 
weapons of mass destruction in the Iraq situation is totally a 
red herring, totally wrong?
    Director Clapper. Yes, I agree with that.
    My fingerprints were on that national intelligence 
estimate. I was in the community then. That was 13 years ago. 
We have done many, many things to improve our processes, 
particularly with respect to national intelligence estimates, 
in order to prevent that from happening again.
    Whatever else you want to say about the intelligence 
community, it is a learning organization, and we do try to 
learn lessons. It is a very difficult business and getting 
harder all the time. There will be mistakes. But what we do try 
to do, as we did after the NIE [National Intelligence Estimate] 
from October 2002 on weapons of mass destruction in Iraq, was 
to learn from that, profit, and make change. Our posture, 
particularly with respect to a very important document, the 
apex of our product line, national intelligence estimates, it 
is the difference of night and day.
    Senator Blumenthal. I appreciate the extraordinary humility 
of that statement, especially in light of the excellence and 
expertise that your organization and you personally have 
brought to this very, very difficult endeavor to provide--and I 
am quoting you I think--unvarnished, untainted, timely, 
accurate information to the most critical national security 
decisions that this Nation makes. I want to express my 
appreciation for it and say that I think some of the 
disparagement has been a terrible disservice to our Nation and 
to the very brave and courageous men and women who put their 
lives at risk so that this Nation can be better informed in 
using our military and other force. I hope that we will see a 
change.
    I also join the chairman in saying that we need better 
policies on what constitutes a cyber attack on this Nation and 
provide a more robust response, for example, against the 
Russians not necessarily in cyber but to impose stronger 
sanctions on their oil exports, on their use of foreign 
exchange. The response to cyber attacks need not be one in the 
cyber domain and in fact might be even more effective if it 
hits their economy and their pocketbook and their livelihoods.
    Mr. Under Secretary, I appreciate your comments in that 
regard. I do not know whether you want to comment in response 
to what I have said. I am out of time. Maybe we can get that in 
writing.
    Director Clapper. Senator Blumenthal, I do want to thank 
you--on behalf all the women and men of the intelligence 
community, I want to thank you for that.
    Senator Blumenthal. Thank you.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you all for appearing before us.
    Mr. Secretary, Director Clapper, since this is your final 
appearance, I know you hope, thank you very much for your many 
years of service, Director Clapper, particularly you.
    I will add my voice to Senators Blumenthal and McCaskill in 
my admiration for the men and women in our intelligence 
agencies. I have had a chance as a member of the Intelligence 
Committee to meet them here at hearings and at their 
headquarters around the world. They do not get the credit they 
often deserve. The troops that we help provide for in this 
committee usually do because they wear uniforms and they are 
known in public, but intelligence officers do not wear uniforms 
and they are frequently undercover. I want to express my 
admiration and deepest respect and gratitude for what they do.
    We have heard a lot of imprecise language here today--and 
it has been in the media as well--phrases like ``hacked the 
election,'' ``undermine democracy,'' ``intervened in 
election.'' I want to be more precise here. Director Clapper, 
let us go to the October 7th statement. That says, quote, the 
recent compromises of emails from United States persons and 
institutions, including from United States political 
organizations, were instructed by the Russian Government. Are 
we talking there specifically about the hack of the DNC 
[Democratic National Committee] and the hack of John Podesta's 
emails?
    Director Clapper. Yes.
    Senator Cotton. Are we talking about anything else?
    Director Clapper. That was essentially at the time what we 
were talking about.
    Senator Cotton. At the time then--it says that the recent 
disclosures through websites like DCLeaks and WikiLeaks are 
consistent with the methods and motivations of Russian-directed 
efforts. DNC emails were leaked first, I believe, in July. Is 
that what the statement is talking about there?
    Director Clapper. I believe so.
    Senator Cotton. Mr. Podesta's emails I believe were not 
leaked until that very day on October 7th. Was the statement 
referring to that yet, or was that not intended to be included?
    Director Clapper. I would have to research the exact 
chronology of when John Podesta's emails were compromised. But 
I think, though, that bears on my statement that our assessment 
now is that is even more resolute than it was with that 
statement on the 7th of October.
    Senator Cotton. Thank you.
    Admiral Rogers, in November at the Wall Street Journal 
Forum, you stated, quote, this was a conscious effort by a 
nation state to attempt to achieve a specific effect. End 
quote. By that, did you also refer to the hack of the DNC, the 
hack of John Podesta's email and the leaks of those emails?
    Admiral Rogers. Yes.
    Senator Cotton. Did you refer to anything else besides 
those two things?
    Admiral Rogers. To be honest, I do not remember the 
specifics of that one particular 30-minute engagement, but 
clearly what you outlined was part of my thought process.
    Senator Cotton. Okay.
    Then further on in that statement, Director Clapper, the 
intelligence community says, quote, it would be extremely 
difficult for someone, including a nation state actor, to alter 
actual ballot counts or election results by cyber attack or 
intrusion. End quote. You stated that earlier today as well, 
that we have no evidence that vote tallies were altered or 
manipulated in any way.
    Director Clapper. That is correct.
    Senator Cotton. That is what happened. Let us discuss why.
    Director Clapper, in response to Senator Nelson, you stated 
that the report soon to be released will discuss the motive. 
Would you care to give any kind of preview today?
    Director Clapper. I would rather not.
    Senator Cotton. I did not think so.
    Director Clapper. There is actually more than one motive. 
That will be described in the report.
    Senator Cotton. In your 53 years of intelligence, is 
ascertaining the motives, plans, and intentions of foreign 
leaders among the hardest tasks that we ask our intelligence 
services to perform?
    Director Clapper. It always has been.
    Senator Cotton. There is a widespread assumption--this has 
been expressed by Secretary Clinton herself since the 
election--that Vladimir Putin favored Donald Trump in this 
election. Donald Trump has proposed to increase our defense 
budget to accelerate nuclear modernization and to accelerate 
ballistic missile defenses and to expand and accelerate oil and 
gas production which would obviously harm Russia's economy. 
Hillary Clinton opposed or at least was not as enthusiastic 
about all those measures.
    Would each of those put the United States in a strong 
strategic position against Russia?
    Director Clapper. Well, certainly anything we do to enhance 
our military capabilities, absolutely.
    Senator Cotton. There is some contrary evidence, despite 
what the media speculates, that perhaps Donald Trump is not the 
best candidate for Russia.
    Okay. That is what happened. That is why it happened, or at 
least a preview that we are going to know why it happened. Let 
us move on to the impact.
    Director Clapper, you said to Senator McCain earlier, 
quote, the intelligence community cannot gauge the impact, end 
quote, on the election. Is that because that kind of electoral 
analysis is not a task that is within the traditional 
responsibility and skill sets of intelligence services?
    Director Clapper. That is correct.
    Senator Cotton. That is something that is more suited for 
someone Shawn Hannity or Michael Barone or Nate Silver, 
election analysts that have written extensively on the 
election.
    Director Clapper. Well, it certainly is not the purview of 
the U.S. intelligence community.
    Senator Cotton. Thank you.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Thank you, Chairman.
    Since this will likely be the last hearing that some of you 
will attend in front of this committee, I just want to thank 
you all for your service and thank all the men and women who 
work for you. I want to say a special note of gratitude to 
Director Clapper for 50 years of incredible service to this 
country.
    I think what makes America great has been our ability to 
elect leaders through a fair, through a peaceful and a 
transparent process without fear of rigging or interference in 
elections. Unfortunately, in this past election, we know that 
interference occurred. When I say ``interference,'' I want to 
be specific. It is not about someone physically stuffing ballot 
boxes or someone hacking our electronic voting machines to give 
one candidate more votes than the other. It is about 
selectively and deliberately releasing damaging information in 
hopes of furthering one's strategic objectives, in this case, 
Russia's strategic objectives.
    I believe this is going to happen again unless there is a 
price to be paid. This interference impacts the foundation of 
our democracy, our elections, which is why I welcomed the 
sanctions against Russia announced by the President and why I 
believe we need to be evaluating additional Russian sanctions. 
It is simply too important for both parties and for the future 
of our country.
    Secretary Lettre, given the need for deterrence in this 
atmosphere which, as you said, is not always achieved by a 
cyber response, how important are tools like sanctions to 
imposing the kind of clear costs that you articulated?
    Mr. Lettre. Sanctions are a very useful tool in that 
toolkit. I think in the case of the current situation that we 
find ourselves in, it would be prudent to continue to look at 
other options to impose more sanctions on Russian actors as the 
facts continue to develop.
    Senator Heinrich. I would agree with that estimate and I 
hope that folks on both sides of the aisle will be looking at 
those additional tools.
    For any of you who want to answer this, I would like to 
know how has the President-elect's at least inferred dismissive 
attitude towards the intelligence community broadly impacted 
morale in your agencies?
    Director Clapper. Well, I have not done a climate survey, 
but I hardly think it helps it.
    Senator Heinrich. Does anyone want to add to that?
    Admiral Rogers. I do not want to lose good, motivated 
people who want to help serve this Nation because they feel 
they are not generating value to help that Nation. I am the 
first to acknowledge there is room for a wide range of opinions 
of the results we generate. We do not question that for one 
minute, and every intelligence professional knows that. I have 
had plenty of times in my career when I have presented my 
intelligence analysis to commanders and policymakers, and they 
have just looked at me and said, hey, Mike, thanks but that is 
not the way I see it or you are going to have to sell me on 
this. That does not bother any of us. What we do I think is 
relevant, and we realize that what we do is in no small part 
driven in part by the confidence of our leaders in what we do. 
Without that confidence, I just do not want a situation where 
our workforce decides to walk because I think that really is 
not a good place for us to be.
    Senator Heinrich. I think many of us could not agree more. 
If the underlying facts that the intelligence community brings 
us are incorrect, we should call that out. I just have not seen 
any evidence indicating that in this case. Oftentimes we come 
to different strategic or policy points of view based on that 
information, but that is an entirely different thing.
    Director Clapper, I want to go to a little bit more of not 
just the classified information, but the relevance of publicly 
available information of the whole picture of Russia's 
activities within the context of this election. Can you talk a 
little bit about the activities of the Russian Government's 
English language propaganda outlets, RT [Russian International 
Television], Sputnik, as well as the fake news activity we saw, 
as well as the social media and how those paint a complete 
picture that is supplemental to what we saw with the hacking in 
this case?
    Director Clapper. I appreciate your raising that because 
while there has been a lot of focus on the hacking, this was 
actually part of a multi-faceted campaign that the Russians 
mounted. And, of course, RT, which is heavily supported, funded 
by the Russian Government, was very, very active in promoting a 
particular point of view, disparaging our system, our alleged 
hypocrisy about human rights, et cetera, et cetera. Whatever 
crack, fissure they could find in our tapestry, if you will, 
they would exploit it. All of these other modes, whether it was 
RT, use of social media, fake news--they exercised all of those 
capabilities in addition to the hacking. And, of course, the 
totality of that I think, regardless of what the impact was 
which we cannot gauge, just the totality of that effort not 
only as DNI but as a citizen I think is of grave concern.
    Senator Heinrich. Thank you, Mr. Chair.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much. I also want to thank you 
and the men and women that work diligently in the intelligence 
community for the work that they do for the United States of 
America.
    Admiral Rogers, you have stated twice now--you have really 
stressed this point--that you must be faster and more agile in 
your responses. Our discussion this morning will go back to a 
discussion that we had in September of this last year in front 
of this body because I believe it is important that you 
understand the capabilities that exist out there and are 
readily available to the United States Cyber Command.
    This past September, I asked you about a Government 
Accountability Office report that stated the Department of 
Defense does not have visibility of all National Guard units' 
cyber capabilities because the Department has not maintained a 
database that identifies the National Guard units' cyber-
related emergency response capabilities, as required by law.
    I was a bit alarmed when you stated that you have not seen 
the report. It was a report that took about a year to compile 
and was presented to both this committee and the House Armed 
Services Committee. Four months later, I still have not 
received an answer from you, my questions for the record. All 
of this morning, all of the GAO [Government Accountability 
Office] recommendations are still open from this report.
    It has been 4 months and I would just like an update on 
that, if you have been able to read the report and where is the 
Department at in regards to tracking National Guard cyber 
capabilities?
    Admiral Rogers. Yes, ma'am. First, we did not get your 
question until December, but I acknowledge that you have 
formally asked us this.
    First, as U.S. Cyber Command, I am the operational 
commander. Manning, training, and equipping is a function of 
services and the Department. For me in my role, I track the 
operational readiness levels of all National Guard and Reserve 
units that are allocated to the mission force. I bore into them 
in the exact same way I do the active side.
    In terms of more broadly, how is the Department tracking 
the set of skills that are available both in the Reserve 
component, I would argue it is the same challenges that are in 
the Active component. How do you take advantage of the breadth 
of capability that is broader than just a particular military 
occupational specialty, for example? I am the first to 
acknowledge, after talking to my teammates at OSD and the 
services, I do not think we have a good answer for you. I will 
have something in writing for you within the next week or so 
because I do acknowledge that we need to do that.
    Senator Ernst. I do appreciate that because how long has 
the United States been experiencing attacks from entities 
outside of the United States.
    Admiral Rogers. You could argue we have been in this cyber 
dynamic for over a decade. It has gotten worse.
    Senator Ernst. A decade. We have taken the steps of 
developing Cyber Command and the capabilities that exist both 
in our Reserves, National Guard, and the Active component 
units. To become faster and more agile, we need to know what 
those capabilities are. If you have a solution to that on how 
we can track those capabilities, we need to figure that out. 
Many of these units have the capability of defending networks 
and yet we are not utilizing those capabilities. We do not know 
where they exist, to be honest.
    Admiral Rogers. Please do not take from my comment that we 
do not believe that the role of the Guard and Reserve is not 
important. If you look in the last 12 months, we have got two 
cyber protection teams from the Guard that have been mobilized. 
We have brought online in the Guard and the Reserve national 
mission teams for the first time within the last year. I mean, 
it is great to see how the Guard and Reserve are developing 
more and more capability. That is a real strength for us.
    Senator Ernst. Absolutely, and I think we will continue to 
see those develop even more in the future, but we need to be 
able to utilize those capabilities that exist out there.
    You know that many of our best soldiers in the National 
Guard and Reserve come from the private sector. I know this 
from some of my own guardsmen that work full-time in computer 
technology and cyber technology. You stated in September, you 
were trying to figure out how better to leverage the National 
Guard. Do you have a response for that? Have you thought of 
ways that we might be able to use those Guard units more 
readily?
    Admiral Rogers. This is a topic that in fact I just was 
talking to General Lengyel, the Director of the Guard Bureau, a 
few weeks ago to say, hey, look, this is something in 2017 I 
want us to sit down. I think there is a couple of specific 
mission areas where the capabilities of the Guard and Reserve 
are really well optimized because I would be the first to admit 
the answer cannot be every time we will just throw the Active 
component at this. I do not think that is an optimal approach 
for us to do in business.
    You will see this play out for us in 2017. We got to work 
through the title 32 versus title 10 issue, what role, what is 
the right way to do this.
    Senator Ernst. Absolutely.
    Admiral Rogers. Do we put it within the defense support to 
civil authority construct? I would like that because it is a 
framework that we already have. I am a big fan of let us not 
reinvent the wheel when it comes to cyber, how do we take 
advantage of processes and the structures and authorities that 
are already in place. That is one thing you will see some 
specific changes on within the Department. We are working 
through that right now on the policy side.
    Senator Ernst. Very good. Well, I appreciate it. I know my 
time is expiring. I look forward to working with you on that, 
Admiral Rogers.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    I want to thank all of you for all your efforts today, for 
the amazing careers you have had.
    Mr. Chairman, thank you for holding this hearing. I think 
it is critically important to our Nation. I want to be clear 
that the purpose of today's hearing is not to debate the 
validity of the election, but to discuss foreign attempts to 
use cyber attacks to attack our country, including the recent 
Russian actions intended to influence our elections. I 
appreciate the bipartisan effort to get our people the answers 
they deserve.
    I am grateful for the amazing efforts that our intelligence 
agencies put forth every single day, that every day lives are 
on the line to make sure that we are safe and to make sure that 
all Americans have a chance to take care of their families and 
go to sleep at night and not have to worry while your people 
are on the front lines all around the world. I can tell you on 
behalf all Hoosiers that when it comes down to a choice between 
your people, our intelligence agencies, and Julian Assange, we 
are on your team every time. I actually find it stunning that 
there is even a discussion in our country about the credibility 
of our intelligence agencies versus Mr. Assange. It is 
astounding to me that we would even make that comparison when 
you see the stars in the CIA headquarters of all the people who 
have lost their lives and all who have lost their lives in our 
agencies to keep us safe.
    Director Clapper, how would you describe your confidence in 
attributing these attacks to the Russian Government as opposed 
to someone in their basement?
    Director Clapper. It is very high.
    Senator Donnelly. The Government has named those 
responsible for the DNC hacks as APT-28 and APT-29, part of the 
Russian intelligence services, the GRU and the FSB [Federal 
Security Service]. Are all these actors targeted by these two 
entities known to the public, sir?
    Director Clapper. I am sorry, sir. The question again? Were 
all what?
    Senator Donnelly. All the actors targeted by these two 
entities, the GRU, the FSB, APT-28, 29--do we know everybody? 
Have you told us who is involved, or are there more that you 
cannot discuss at this time?
    Director Clapper. Right. I do not think I can discuss that 
in this forum.
    Senator Donnelly. Okay.
    How far up the chain, in what you can tell us, does this go 
in regards to the Russians? At what level were the instructions 
to take these actions given?
    Director Clapper. Again, sir, I cannot speak to that in 
this setting.
    Senator Donnelly. Thank you.
    Do you think we are communicating clearly to our 
adversaries in a language that they will understand that the 
costs will outweigh any gains they get if they try this again? 
Not only you, Director, but the others, and how do we best send 
that message, do you think?
    Director Clapper. Well, certainly the sanctions that have 
been imposed, the expulsion of the 35 intelligence operatives, 
the closure of the two facilities which were used for 
intelligence purposes, and the other sanctions that were 
levied, I think does convey a message. It is open to debate 
whether more should be done. I am a big fan of sanctions 
against the Russians, but that is just me.
    Senator Donnelly. Admiral, what would you say, sir?
    Admiral Rogers. I would agree. I mean, the challenge here 
is, look, I do not think it is in the best interest of any of 
our nations to be in this confrontational approach to doing 
business, and we have got to figure out how do we articulate 
what is acceptable, what is no acceptable in a way that enables 
us to move forward in a productive relationship. That is not 
unique to the Russians. I would argue that that is a challenge 
for us with a whole host of actors out there. This has just, in 
some ways, been the poster child for this challenge of late.
    Director Clapper. I would add to that, if I may, that it 
certainly would be a good thing if we could find areas where 
our interests converge. I am speaking of ours and the Russians. 
We have done that in the past. Just to foot stomp Admiral 
Rogers' point. But I think there is a threshold of behavior 
that is just unacceptable, and somehow that has to be conveyed.
    Senator Donnelly. Well, I am out of time, but on behalf of 
all the American people, we want to thank you. You have 
dedicated your lives to keeping us safe, and we are incredibly 
grateful for it.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman. Thank you and 
the ranking member for holding this hearing.
    I also want to thank you, General Clapper, Mr. Secretary, 
for your service, as this might be your last hearing, and the 
men and women you lead.
    You described in your testimony the increasing attacks we 
are seeing not just from Russia but China and other actors, 
Iran, North Korea, their increasing capabilities. The 
chairman's opening statement pretty much stated that it is his 
view--and I certainly share the view--that we are being hit 
repeatedly because the benefits outweigh the costs for those 
who are taking these actions against us. Do you agree with 
that?
    Director Clapper. I do and I think we all do. For 
adversaries like--I will just name--North Korea and Iran, it is 
relatively low-cost acts that can cause havoc. What I think we 
have seen over time is that they keep pushing the envelope 
because as their capabilities improve and they are willing to 
exercise those capabilities.
    Senator Sullivan. If that is the case--I was glad that I 
think there is some consensus here. You are talking about 
retaliating, upping the costs with all instruments of power, 
Mr. Secretary, you mentioned at the time of our choosing, in 
the realm of our choosing. But it does not seem to be 
happening. It does not seem to be happening because the attacks 
continue.
    Let me just give an example. Let us say Iran conducted--and 
you mentioned that they are being more aggressive more risky 
than North Korea--some kind of cyber attack. If we did 
something maybe without announcing it, like the President 
announced the Russian counteraction, but let us say we did not 
announce it and let us say we did something where we 
essentially collapsed their financial system or something 
pretty dramatic. We let them know we did it, but we do not have 
to publicize it. Do you think that is the kind of action that 
would say, hey, do not do this or we are going to come back and 
retaliate at our time, our choosing, and crush you? How come we 
have not done that yet, and do you think if we did something 
like that with the Iranians or the North Koreans, would that 
deter them in the future, Mr. Secretary?
    Mr. Lettre. Senator, I think you are getting right at the 
question of what do we mean by a proportional response in some 
instances.
    Senator Sullivan. Or asymmetric. You are talking about 
asymmetric responses, which I fully agree with.
    Mr. Lettre. That is right. Or in instances that are 
significantly serious and grave, whether a more than a 
proportional response is required to really set that deterrence 
framework in place.
    Senator Sullivan. But is the key question not right now--it 
came from the chairman's opening statement, which I think you 
agreed with--is that nobody seems to be intimidated by us right 
now.
    Let me give another example. Senator Inhofe asked a 
question early on about China. China hacked allegedly--maybe 
you can confirm that--government-led--22 million files, a lot 
of the SF-86 files that you use for background clearances. They 
have mine I was informed by the Government. Very sensitive 
information, as you know, that they could use against 
intelligence operatives and military members. Senator Inhofe 
asked the question, what did we do? The answer that I heard 
from all of you was, well, we try to protect people like me 
and, I am sure, others whose sensitive intel information and 
background information was compromised. But I did not hear any 
claim of a retaliation on a huge hack--huge. 22 million 
American Federal, military, intel workers got hacked by the 
Chinese.
    The President signed this statement with President Xi 
Jinping, the United States-China Security Agreement, but 
obviously, General Clapper, from your testimony the Chinese 
have not abided by that. Have they?
    Director Clapper. They have.
    Senator Sullivan. I am sorry. I thought you said in your 
testimony today that they continue to conduct cyber attacks.
    Director Clapper. They continue to conduct cyber espionage. 
They have curtailed--as best we can tell, there has been a 
reduction, and I think the private sector would agree with 
this. There has been some reduction in their cyber activity. 
The agreement simply called for stopping such exfiltration for 
commercial gain.
    Senator Sullivan. Let me just ask a final question. Did we 
retaliate and up the costs against China after an enormous 
cyber attack against our Nation?
    Director Clapper. We did not retaliate against an act of 
espionage any more than other countries necessarily have 
retaliated against us for when we conduct espionage.
    Senator Sullivan. But is that answer not part of the 
problem that we are showing that we are not going to make it 
costly for them to come in and steal the files of 22 million 
Americans, including many intel officers?
    Director Clapper. Well, as I say, people who live in glass 
houses need to think about throwing rocks because this was an 
act of espionage. We and other nations conduct similar acts of 
espionage. If we are going to punish each other for acts of 
espionage, that is a different policy issue.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman. Your opening 
statements are always erudite and thoughtful, but I thought 
today's was particularly so. You touched on all the important 
points that have really formed the basis for this hearing. I 
want to thank you for that.
    Director Clapper, I think it is important to put some 
context around some of these discussions. One of the most 
important things to me is that your public statement in 
October, along with Jeh Johnson, was prior to the election, and 
you were simply telling facts that you had observed. In my 
experience of reading intelligence community communications, it 
is one of the more unequivocal that I have seen. You have 
stated here you have high confidence in those conclusions that 
the Russians were behind it, that it was intended to interfere 
with our elections, and that approval went to the highest 
levels of the Russian Government. Have you learned anything 
subsequently that you can tell us here today to contradict 
those findings that you publicly stated last October?
    Director Clapper. No. In fact, if anything, what we have 
since learned just reinforces that statement of the 7th of 
October.
    Senator King. There was no political intention. You were 
simply reporting facts as you saw them. I presume that is 
correct. Your history is one of being nonpolitical.
    Director Clapper. Absolutely. I felt particularly strongly, 
as did Secretary Johnson, that we owed it to the American 
electorate to let them know what we knew.
    Senator King. Now, people in Maine are skeptical and they 
want to have evidence and proof. I am hearing from people, 
prove it. The problem, as I understand it, is the desire to 
provide evidence that is convincing that your conclusions are 
correct versus the danger of compromising national security on 
sources and methods. Can you sort of articulate that? Because I 
think that is an important point.
    Director Clapper. We have invested billions, and we put 
people's lives at risk to glean such information. If we were to 
fulsomely expose it in such a way that would be completely 
persuasive to everyone, then we can just kiss that off because 
we will lose it, and then that will endanger our--imperil our 
ability to provide such intelligence in the future. That is the 
dilemma that we have in intelligence. We want to be as 
forthcoming and transparent as possible, but we feel very, very 
strongly, as we do in this case, about protecting very fragile 
and sensitive sources and methods.
    Senator King. Let us again turn to a question of context. 
What we saw in this country this fall and going back actually 
almost a year was an example of a Russian strategy that has 
been playing out in Europe for some time that includes not just 
hacking, as you said, but disinformation, propaganda.
    I heard just from a senior commander--I took a break here 
from the hearing--in Europe that Russia is actually buying 
commercial TV stations in western Europe at this point. This is 
a comprehensive strategy that we have seen playing out in 
eastern Europe, and also there was a report this morning that 
they are funding one of the candidates for the presidency of 
France in the election this May.
    Director Clapper. Well, the Russians have a long history of 
interfering in elections, theirs and other people's. There is a 
long history in this country of disinformation. This goes back 
to the 1960s, you know, the heyday of the Cold War--funding 
that they would share or provide to candidates they supported, 
the use of disinformation. But I do not think that we have ever 
encountered a more aggressive or direct campaign to interfere 
in our election process than we have seen in this case.
    Senator King. There are so many more channels of 
disinformation today than there were in the past.
    One final point.
    Director Clapper. That is exactly right, and that is a very 
key point about the--of course, the cyber dimension and social 
media and all these other modes of communication that did not 
exist in the Cold War.
    Senator King. One final point. We had a meeting with the 
committee with a group of representatives from the Baltic 
States, and I know the chairman was just in the Baltic States. 
They are just deluged with this. I mean, they have been warning 
us about this for years, about the messing around with 
elections. I said, so what do you do? How do you defend 
yourself? They said, well, we are trying to defend ourselves in 
various ways, but the best defense is for our public to know 
what is going on so they can take it with a grain of salt. I 
thought that was a very interesting observation because their 
people now say, oh, yeah, that is just the Russians.
    That is why I think public hearings like this and the 
public discussion of this issue is so important because we are 
not going to be able to prevent this altogether. But we need to 
have our people understand when they are being manipulated. 
Would you agree with that conclusion?
    Director Clapper. Absolutely. That is why I felt so 
strongly about the statement in October.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Just to follow up, General Clapper. During 
the Cold War we had a strategy and we had Radio Free Europe. We 
had Voice of America. Senator Graham, who will be speaking 
next, will attest that in our recent trip they do not have a 
strategy. They do not have a counter-propaganda--the United 
States of America I am talking about. We have got to develop 
that strategy even if it encompasses the Internet and social 
media. But they are doing pretty significant stuff particularly 
in the Baltics and Eastern Europe. Would you agree, Senator 
Graham?
    Senator Graham. Yes. I appreciate being before the 
committee. Thank you.
    [Laughter.]
    Senator Graham. Yes, I would.
    Would you agree with me that Radio Free Europe is outdated?
    Director Clapper. I am frankly not up on----
    Senator Graham. Well, it says ``radio,'' and a lot of 
people do not listen to the radio like they used to.
    Director Clapper. Well, actually radio is a very popular 
mode in many parts of the world.
    Senator Graham. Radio is big in your world?
    Director Clapper. In my world?
    Senator Graham. Yes.
    Director Clapper. Not so much.
    Senator Graham. Yes. I do not listen to the radio much 
either.
    The bottom line is you are going to be challenged tomorrow 
by the President-elect. Are you okay with being challenged?
    Director Clapper. Absolutely.
    Senator Graham. Do you both welcome it?
    Director Clapper. We do.
    Senator Graham. Do you think it is appropriate?
    Director Clapper. We do.
    Senator Graham. Are you ready for the task?
    Director Clapper. I think so.
    Senator Graham. Good.
    Is there a difference between espionage and interfering in 
an election?
    Director Clapper. Yes. Espionage implies, to me at least, a 
passive collection, and this was much more activist.
    Senator Graham. When it comes to espionage, we better be 
careful about throwing rocks. When it comes to interfering in 
our election, we better be ready to throw rocks. Do you agree 
with that?
    Director Clapper. That is a good metaphor.
    Senator Graham. I think what Obama did was throw a pebble. 
I am ready to throw a rock.
    Would I be justified as a United States Senator taking your 
information about Russia's involvement in our election and what 
they are doing throughout the world and be more aggressive than 
President Obama if I chose to?
    Director Clapper. That is your choice, Senator.
    Senator Graham. Do you think he was justified in imposing 
new sanctions based on what Russia did?
    Director Clapper. I do.
    Senator Graham. To those of you who want to throw rocks, 
you are going to get a chance here soon, and if we do not throw 
rocks, we are going to make a huge mistake.
    Admiral Rogers, is this going to stop until we make the 
cost higher?
    Admiral Rogers. We have got to change the dynamic here 
because we are on the wrong end of the cost equation.
    Senator Graham. Yes. You got that right.
    Could it be Republicans' next election?
    Admiral Rogers. This is not about parties per se.
    Senator Graham. Yes. It is not like we are so much better 
at cybersecurity than Democrats.
    Admiral Rogers. Right.
    Senator Graham. Now, I do not know what Putin was up to, 
but I do not remember anything about Trump in the election.
    Now, if Trump goes after the Iranians, which I hope he 
will, are they capable of doing this?
    Admiral Rogers. They clearly have a range of cyber 
capability and they have been willing to go offensively. We 
have seen in the United States in the one dam.
    Senator Graham. If Trump takes on China, which I hope he 
will, are they capable of doing this?
    Admiral Rogers. Yes.
    Senator Graham. We got a chance as a Nation to lay down a 
marker for all would-be adversaries. Do you agree with that?
    Admiral Rogers. Yes, and I would be the first to 
acknowledge we need to think about this broadly.
    Senator Graham. We should take that opportunity before it 
is too late.
    Admiral Rogers. Yes, sir.
    Senator Graham. Do you agree with me that the foundation of 
democracy is political parties, and when one political party is 
compromised, all of us are compromised?
    Admiral Rogers. Yes, sir.
    Senator Graham. All right.
    Now, as to what to do, you say you think this was approved 
at the highest level of government in Russia, generally 
speaking. Is that right?
    Director Clapper. That is what we said.
    Senator Graham. Who is the highest level of government?
    Director Clapper. Well, the highest is President Putin.
    Senator Graham. Do you think a lot happens in Russia big 
that he does not know about?
    Director Clapper. Not very many.
    Senator Graham. Yes. I do not think so.
    Director Clapper. Certainly none that are politically 
sensitive in another country.
    Senator Graham. Okay.
    Now, as we go forward and try to deter this behavior, we 
are going to need your support now and in the future. I want to 
let the President-elect know that it is okay to challenge the 
intel. You are absolutely right to want to do so. But what I do 
not want you to do is undermine those who are serving our 
Nation in this arena until you are absolutely sure they need to 
be undermined. I think they need to be uplifted, not 
undermined.
    North Korea. Let me give you an example of real world stuff 
that he is going to have to deal with Trump. Do you believe 
that North Korea is trying to develop an ICBM [Intercontinental 
Ballistic Missile] to hit the United States or that could be 
used to hit the United States?
    Director Clapper. That could be, yes.
    Senator Graham. Do you agree with that, Admiral Rogers?
    Admiral Rogers. Yes.
    Senator Graham. When the North Korean leader says that they 
are close to getting an ICBM, he is probably in the realm of 
truth?
    Admiral Rogers. He is certainly working aggressively to do 
that.
    Senator Graham. If the President of the United States says 
it will not happen, he is going to have to come to you all to 
figure out how far along they are because you would be his 
source for how far along they are. Is that right?
    Director Clapper. I hope we would be the source.
    Senator Graham. Yes. I hope he would talk to you too. Here 
is what I hope he realizes, that if he has to take action 
against North Korea, which he may have to do, I intend to 
support him, but he needs to explain to the American people 
why. One of the explanations he will give is based on what I 
was told by the people who are in the fight. Let me tell you 
this. You do not wear uniforms, but you are in the fight. We 
are in a fight for our lives.
    I just got back from the Baltics, Ukraine, and Georgia. If 
you think it is bad here, you ought to go there.
    Ladies and gentlemen, it is time now not to throw pebbles 
but to throw rocks. I wish we were not here. If it were up to 
me, we would all live in peace, but Putin is up to no good and 
he better be stopped. Mr. President-elect, when you listen to 
these people, you can be skeptical but understand they are the 
best among us and they are trying to protect us.
    Thank you all.
    Chairman McCain. Would you have any response to that 
diatribe?
    [Laughter.]
    Director Clapper. Senator Graham and I have had our innings 
before, but I find myself in complete agreement with what he 
just said and I appreciate it.
    Chairman McCain. Thank you.
    Director Clapper. Chairman McCain, if I might just pick up 
on a comment of yours and that has to do with the information 
fight, if you will. This is strictly personal opinion, not 
company policy. But I do think that we could do with having a 
USIA [United States Information Agency] on steroids, United 
States Information Agency, to fight this information war a lot 
more aggressively than I think we are doing right now.
    Chairman McCain. You know, I agree, General, and I think 
one of the areas where we are lacking and lagging more than any 
other area is social media. We know these young people in the 
Baltics are the same as young people here. They get their 
information off the Internet, and we have really lagged behind 
there.
    Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman and Mr. Ranking 
Member, for hosting this very important hearing.
    I want to follow on some of the questioning that Senator 
Ernst started concerning the National Guard and cyber. I have 
been pushing DOD to use the Guard for years and appreciate that 
this is beginning to happen. Members of the Guard bring unique 
skills and capabilities, and we should be leveraging them.
    Admiral Rogers, I look forward to working with you on how 
best to do this. Can you tell me whether there has been 
movement on the Army National Guard cyber protection teams 
being included in the cyber mission forces?
    Admiral Rogers. Yes. We brought two online that have been 
activated in the last year, two additional that are coming 
online in 2017, the first of which just came online. Yes, 
ma'am.
    Senator Gillibrand. How much more is left to be done?
    Admiral Rogers. The Guard and Reserve are bringing on an 
additional 21 teams. Those will not be directly affiliated with 
the mission force. But one of the things I think we are going 
to find over time, the only way to generate more capacity in a 
resource-constrained world is to view this as an entire pie, 
not just, well, here is one sliced off area, the mission force, 
and here is a separate area, the Guard and Reserve. I think 
what we are going to be driven to is we are going to have to 
look at this as much more integrated whole.
    Senator Gillibrand. I do too because at the end of the day, 
our Guard and Reserve--they have day jobs and they may be 
working at Google and Microsoft and Facebook and all these 
technology companies and have extraordinary skills. As a way to 
tap into the best of the best, I think we should look at people 
who already have these skills who are already committed to 
serving our Nation as best we can. I appreciate your work.
    Admiral Rogers. If I could, one area that I would be 
interested in your help in--for many employers in the Guard and 
Reserve--and I say this as the son of guardsman when I was a 
kid growing up--they often--sometimes--tend to view that 
service as something that you do overseas. Hey, I am willing to 
let you go because you are going to Afghanistan, you are going 
to Iraq. In the world of cyber, we are operating globally from 
a garrison, pick the location----
    Senator Gillibrand. From any location in the world.
    Admiral Rogers. Anywhere.
    This just came up. General Lengyel and I were just talking 
about this yesterday, as a matter of fact. I said one of the 
things we need to do is educate employers about what is the 
nature of this dynamic, and it is every bit as relevant as we 
are sending somebody to Afghanistan or Iraq.
    Senator Gillibrand. I think that is right.
    On a separate topic but related, I have long been 
advocating for aggressive development of the manpower that we 
need to support our cybersecurity mission. In particular, I 
continue to believe that we have to not only develop the 
capability in our military and the interest in cyber among 
young Americans, but that the military must be creative when 
thinking about recruitment and retention of cyber warriors.
    How would you assess our current recruitment and retention 
of cyber warriors? What challenges do you foresee in the 
future, and what recommendations do you have to address them? 
Because, obviously, we are competing with some of the most 
dynamic, innovative companies in the world, but we need them to 
be our cyber defense and our cyber warriors.
    Admiral Rogers. Knock on wood. In the military aspect, we 
are exceeding both our recruiting and retention expectations. I 
worry about how long can we sustain that over time in the 
current model. My immediate concern is a little less on the 
uniform side in part because if money was a primary driver for 
them, they would not have come to us in the first place.
    On the civilian side, however, that is probably my more 
immediate concern. I am finding it more challenging. We are 
able to recruit well. Retaining them over time--I am really 
running into this on the NSA side right now. How do you retain 
high-end, very exquisite civilian talent for extended periods 
of time?
    Senator Gillibrand. Well, I would be delighted to work with 
you over the next year on that.
    Director Clapper, I was very interested in your opening 
remarks and the initial conversation you were having about the 
Russian hack onto the DNC and to various personnels' emails and 
the question of whether it was a declaration of war. Given that 
that is such a serious statement, I want to ask you, do you 
think we should take things like the Democratic or Republican 
Party infrastructure and consider them to be critical 
infrastructure? Should we actually be looking at our 
infrastructure differently because of this recent event?
    Director Clapper. That has been a subject of discussion 
about whether, you know, our political infrastructure should be 
considered critical infrastructure. I know Secretary Johnson 
has had a discussion with State officials about that, and there 
is some pushback on doing that. It is a policy call. Whatever 
additional protections that such a declaration would afford, I 
think that would be a good thing. But whether or not we should 
do that is really not a call for the intelligence community to 
make.
    Senator Gillibrand. Well, I hope it is one that the members 
here on this committee will discuss because if it does result 
in such a grave intrusion, maybe it should be critical 
infrastructure. Certainly politics and political parties are 
not set up that way, and so it would be quite a significant 
change.
    Thank you.
    Chairman McCain. Director Clapper has to leave in about 20 
minutes. We will enforce the time.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair.
    Gentlemen, thank you all for your service. I for one have 
high confidence in the community that you represent, and I hope 
that they recognize that I speak for most of the Senators here 
that share the same view.
    Director Clapper, I am going to spend most my time probably 
reflecting on some of the comments that you have made. The 
glass house comment is something I think is very important.
    There has been research done by a professor up at Carnegie-
Mellon that has estimated that the United States has been 
involved in one way or another in 81 different elections since 
World War II. That does not include coups or regime changes. 
Tangible evidence where we have tried to effect an outcome to 
our purpose. Russia has done it some 36 times. In fact, when 
Russia apparently was trying to influence our election, we had 
the Israelis accusing us of trying to influence their election. 
I am not here to talk about that, but I am here to say that we 
live in a big glass house and there are a lot of rocks to 
throw. I think that is consistent with what you said on other 
matters.
    I want to get back to the purpose of the meeting, the 
foreign cyber threats. I think, Admiral Rogers and Director 
Clapper, you all have this very difficult thing to communicate 
to policy people who many not have subject-matter expertise in 
this space. For example, Director Clapper, you were saying that 
one of the problems with the counterattack--I think it was you. 
It could have been Admiral Rogers--is that you may have to use 
an asset that is actually a presence on some other nation where 
that nation may or may not know that we have a presence there. 
In fact, we have presences across cyberspace that are not known 
that as a part of a counterattack, the counterattack could be 
nothing more than exposing our presences because we know a lot 
of our adversaries may or may not be aware of presences that we 
have out there in appropriate locations. Is that correct?
    Director Clapper. Yes, and I think you have succinctly 
illustrated the complexities that you run into here.
    Senator Tillis. That is why as thrilling as somebody who 
has written the precursors to phishing code before and stolen 
passwords as a part of ethical hack testings--I was paid to do 
this. That underscores the need for us to really be educated 
about the nature of this battle space and how more often than 
not, it is probably more prudent to seek a response that is not 
a cyber response given the fluid nature.
    We are in an environment now where we see a threat and we 
build a weapon system. It is on the water. It is on the air. It 
is on the ground. Then we kind of counter that threat and we 
come up with war plans to use that capability.
    In cyberspace, major weapon systems get created in 24-hour 
cycles. You have no earthly idea whether or not you have a 
defensive capability against them. If you all of a sudden think 
let us go declare war in cyberspace, be careful what you ask 
for because collectively there are 30 nations right now that 
have some level of cyber capability. There are four or five of 
them that are near peer to the United States. There are two or 
three that I think are very threatening and in some cases 
probably have superior capabilities to us in terms of 
presences, maybe not as sophisticated but potentially in a 
cyber context more lethal.
    I think there are a lot of questions. One of the beauties 
of being a freshman--I guess now I am not a freshman--being at 
the end of the dais, all the good questions have been asked. 
But one of the things that I would suggest that we do is we as 
members really get educated on the nature of this threat and 
the manner in which we go about fighting it and understanding 
that the iterative nature of weapons creations on the Internet 
are unlike anything we have seen in record human history for 
warfare, and we need to understand that.
    We also need to understand what the rules of engagement are 
going to be and how future AUMFs actually include a specific 
treatment for behaviors that are considered acts of war and 
then a whole litany of things that we should do for appropriate 
responses so that we can begin to make more tangible the 
consequences of inappropriate behavior in cyberspace.
    That is not so much a diatribe, but it probably is a 
speech, Mr. Chair.
    The last thing I will leave you with is, Admiral Rogers, I 
would like for my office to get with you and continue to talk 
about how we get these bright people, retained and recruited, 
to stay up to speed with developing these threats. We need to 
understand that they are secret to creating these weapon 
systems to counter the malicious acts like Russia, China, Iran, 
and a number of other nations are trying to develop against us.
    Thank you.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service.
    I think it is clear that we have tremendous concerns about 
the Russian hacking in our elections, and I think it is more 
than ironic that we have a President-elect who kept talking 
about our elections being rigged, which I would consider trying 
to interfere with our elections to be a part of a rigged kind 
of an election. At the same time, he denied Russia's activities 
in this regard.
    Some of this was already touched on regarding the 
President-elect's attitudes toward the intelligence community, 
the impact on morale. Going forward, as we are challenged by 
the need to have more cyber-aware or skilled cyber workforce, 
if this attitude toward the intelligence community does not 
change on the part of decision-makers, including the President, 
would you agree that it would make it that much harder, 
Director Clapper and Admiral Rogers, to attract the kind of 
cyber-experienced workforce that we need to protect our 
country?
    Director Clapper. Well, it could. I do not know that we 
could say some of these statements have had any impact on 
recruiting. It could.
    Senator Hirono. Or retention.
    Director Clapper. I think it could.
    On retention, I think just maybe to embellish what Admiral 
Rogers was saying, I do think that consideration needs to be 
given to having more flexibility and more latitude on 
compensation for our high-end cyber specialists who are lured 
away by industry that are paying huge salaries. That is not why 
you are in the Government, not why you serve in the 
intelligence community, not obviously for money. But I do think 
in those highly technical, high-end skill sets that we badly 
need in the Government in the intelligence community, that it 
would be helpful to have more latitude on compensation.
    Admiral Rogers. I would agree, Senator.
    Senator Hirono. Very briefly.
    Admiral Rogers. Both of these individuals know within the 
last 24 hours, which I said using my authority as the Director 
of NSA, I am going to authorize the following increased 
compensations for the high-end cyber part of our workforce 
because I am just watching the loss.
    Senator Hirono. Yes, of course. It is not just compensation 
that attracts people to what we are doing in our intelligence 
community because service to the country is a very important 
motivation. And, of course, I would think that morale would be 
very much attendant to that.
    There was some discussion about what would constitute, in 
the cyber arena, an act of war. Director Clapper, I note in 
your testimony that I think this is one of the reasons that we 
want to develop international norms in this arena. Who should 
be the key players in developing agreeing to these 
international norms in the cyber arena? If the big players are 
United States, China, Russia, if we do not have those players 
at the table to come up with these international norms, how 
realistic is it to develop and----
    Director Clapper. Well, that is exactly the challenge. 
Those are the key nation states that we would need to engage. 
There has been work done under the auspices of the United 
Nations to attempt to come up with cyber norms, but I think we 
are a ways away from those having impact.
    Senator Hirono. Would you agree, Admiral Rogers?
    Admiral Rogers. Yes, ma'am.
    Senator Hirono. Turning to the awareness of the public as 
to the extent of the threat, a 2016 opinion piece by two 
members of the 9/11 Commission--basically they said that the 
most important thing government and leaders in the private 
sector can do is to clearly explain how severe this threat is 
and what the stakes are for the country.
    Director Clapper, do you think that the general public 
understands the severity of the cyber threat and the stakes for 
the country? What should Americans keep in mind with regard to 
this threat? What can ordinary Americans do to contend with 
this threat?
    Director Clapper. I think there is always room for more 
education, and certainly we have a role to play in the 
intelligence community in sharing as much information as we can 
on threats posed by both nation states, as well as non-nation 
states.
    I think there are simple things that Americans can do to 
protect themselves. You know, be aware of the threat posed by 
spear phishing, for example, which is a very common tactic that 
is used yet today. We have a challenge in the Government 
getting our people to respond appropriately to cyber threats. 
This is one case where communicate, communicate, communicate is 
the watchword.
    Chairman McCain. Senator Cruz?
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you for your 
service to our Nation.
    The topic of this hearing, cybersecurity, cyber attack, is 
a growing threat to this country and one that I think will only 
become greater in the years ahead. We have seen in recent years 
serious attacks from, among others, Russia, China, North Korea. 
Indeed, it is with some irony--I spent a number of years in the 
private sector, and to the best of my knowledge never had my 
information hacked. Then all I had
    to do was get elected to the United States Senate and the 
Office of Personnel Management was promptly hacked and everyone 
on this bench had our information stolen by a foreign assault.
    My question, Admiral Rogers, starting with you is what do 
you see as the greatest cybersecurity threats facing our 
country, and what specifically should we be doing about it to 
protect ourselves?
    Admiral Rogers. A small question.
    When I look at the challenges and the threats, it is, in no 
particular order, significant extraction of information and 
insight that is generating economic advantage for others, that 
is eroding operational advantage at times for us as a Nation. 
That is, as you have seen in this Russian piece, where not just 
the extraction but then the use of this information adds a 
whole other dimension. What concerns me beyond all that is what 
happens as we start to move in an environment in which not only 
is information being--I have heard some people use the phrase 
``weaponized.'' What happens when now we see people suddenly 
manipulating our networks so we cannot believe the data that we 
are looking at. That would be a real fundamental game-changer 
to me, and to me it is only a question of the ``when'' not the 
``if'' this is going to happen. What happens when the non-state 
actor decides that cyber offers an asymmetric advantage to 
them? Because their sense of risk and their willingness to 
destroy the status quo is significantly different and greater 
than your typical nation state. Those are the kinds of long-
term things.
    As we talked about more broadly today, we have got to get 
better on the defensive side because part of deterrence is 
making it harder for them to succeed. I acknowledge that. But a 
defensive strategy alone is not going to work. It is a 
resource-intensive approach to doing business, and it puts us 
on the wrong end of the cost equation. That is a losing 
strategy for us, but it is a component of a strategy. We have 
got to ask ourselves how do we change this broader dynamic. To 
go the point you have heard repeatedly today, how do we 
convince nations and other actors out there that there is a 
price to pay for this behavior, that in fact it is not in your 
best interest.
    Senator Cruz. What should that price be?
    Admiral Rogers. It is a wide range of things. There is no 
one silver bullet, which is another point I would make. If we 
are looking for the perfect solution, there is not one. This 
will be a variety of incremental solutions and efforts that are 
going to play out over time. There is no one single approach 
here.
    Senator Cruz. Well, and your point about manipulating data, 
about a month ago I chaired in a different committee a hearing 
on artificial intelligence and our economy's growing reliance 
on artificial intelligence. One of the things that the 
witnesses testified there was concern on the cybersecurity side 
of a hack that would modify the big data that is being relied 
on for artificial intelligence to change the decision-making in 
a way nobody is even aware it has been changed. I think that is 
a threat I hope that you all are examining closely, and it is 
the sort of threat that could have significant repercussions 
without anyone even being aware it is happening.
    Let me shift to a different topic. Director Clapper, you 
have testified before this committee that Cuba is an 
intelligence threat on par with Iran and listed below only 
Russia and China. There are reports that Lourdes, the Russian-
operated signal intelligence base in Cuba, will be reopened. 
Additionally, this past summer Russia and Nicaragua struck a 
deal to increase military and intelligence cooperation, 
resulting in an influx of Russian tanks into Managua and an 
agreement to build an electronic intelligence base, which may 
be disguised as a satellite navigation tracking station.
    To the best of your knowledge, what is Russia's strategy in 
the western hemisphere, and how concerned are you about the 
Russians expanding their influence in Cuba and Nicaragua?
    Director Clapper. Well, the Russians are bent on 
establishing both a presence in the western hemisphere and they 
are looking for opportunities to expand military cooperation, 
sell equipment, airbases, as well as intelligence gathering 
facilities. It is just another extension of their 
aggressiveness in pursuing these interests.
    With respect to Cuba, Cuba has always had long-standing, 
very capable intelligence capabilities, and I do not see a 
reduction of those capabilities.
    Senator Cruz. Thank you.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses for today and for your service.
    Mr. Chair, I appreciate you calling this hearing. I think 
this hearing is a test of this body, the Article 1 branch of 
Congress, this hearing and others to follow.
    I was chairman of the Democratic National Committee for a 
couple years, and we had a file cabinet in the basement that 
had a plaque over it. It was a file cabinet that was rifled by 
burglars in an invasion of the Democratic National Committee in 
1972. It was a bungled effort to take some files and plant some 
listening devices.
    That small event led to one of the most searching and 
momentous congressional inquiries in the history of this 
country. It was not partisan. One of the leaders of the 
congressional investigation was a great Virginian called Will 
Butler, who was my father-in-law's law partner in Roanoke, 
Virginia before he went to Congress, played a major role. It 
was not an investigation driven because something affected the 
election. The 1972 presidential election was the most one-sided 
in the modern era. But it was a high moment for Congress 
because Congress in a bipartisan way stood for the principle 
that you could not undertake efforts to influence an American 
presidential election and have there be no consequence.
    The item that we will discuss and we will discuss more when 
the hearing comes out is different. That was a burglary of a 
party headquarters that was directed to some degree from the 
Office of the President. But this is very serious. The combined 
intelligence of this country has concluded that efforts were 
undertaken to influence an election by an adversary, an 
adversary that General Joe Dunford, the head of the Joint 
Chiefs of Staff, said in testimony before this hearing, was in 
his view the principal adversary of the United States at this 
point.
    In addition, the attack was not just on a party 
headquarters. The October 7 letter that you have referred to 
talked about attacks on individuals, current and former public 
officials with significant positions, and also attacks on State 
boards of elections. The letter of October 7 traced those 
attacks to Russian entities, Russian companies, and did not 
ascribe, at least in that letter, to that directed by the 
Russian Government, but I am curious about what the full report 
will show.
    It is my hope that this Congress is willing to stand in a 
bipartisan way for the integrity of the American electoral 
process and will show the same backbone and determination to 
get all the facts and get them on the table, as the Congress 
did in 1974.
    There was another congressional inquiry that was directed 
after the attacks on 9/11, and there was a powerful phrase in 
that report that I just want to read. The commission concluded, 
quote, the most important failure was one of imagination. We do 
not believe leaders understood the gravity of the threat. That 
is something I think we will have to grapple with. Did we have 
sufficient warning signs? I think we did. Having had sufficient 
warning signs, why did we not take it more seriously? That 
question is every bit as important as a question about what a 
foreign government, an adversary, did and how we can stop it 
from happening.
    Three quick points.
    One, is the report next week that is going to be issued not 
solely going to be confined to issues of hacking but also get 
into the dimension of this dissemination of fake news? Will 
that be one of the subject matters covered?
    Director Clapper. Without preempting the report, we will 
describe the full range of activities that the Russians 
undertook.
    Senator Kaine. I think that is incredibly important.
    I had a little role in this election. I was along for he 
ride for 105 days and was the subject of a couple of fake news 
stories. It was interesting. There were at least three that the 
mainstream media did not cover because they were so incredible 
that like why would they. But I looked at one of the stories 
that had been shared 800,000 times. When I see an 
administration who has put in place as the proposed national 
security advisor someone who traffics in these fake news 
stories and retweets them and shares them, who betrays a sense 
of either gullibility or malice that would kind of be--these 
are stories that most fourth graders would find incredible. 
That a national security advisor would find them believable 
enough to share them causes me great concern.
    Second, go back to Joe Dunford. He talked about Russia as a 
potential adversary because they have capacity and they have 
intent. With respect to our cyber, I think we have capacity, 
but I think what we have shown is we have not yet developed an 
intent about how, when, why, whether we are going to use the 
capacity we have. If we are going to shore up our cyber 
defense, in one word do you think what we really need to shore 
up is our capacity, or do we need to shore up our intent?
    Director Clapper. As we look at foreign adversaries, that 
is always the issue is capability and intent. Certainly in the 
case of the Russians, they do pose an existential threat to the 
United States. I agree with Chairman Dunford on that. It is 
probably not our place, at least my place, in the intelligence 
community to do an assessment of our intent. That is someone 
else's place. It is not mine.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman and Senator Reed, 
for holding this hearing.
    Thank you all very much for testifying this morning and for 
your service to the country.
    Dr. Robert Kagan testified before this committee last 
December with respect to Russia. At that time, there was less 
information known to the public about what had happened in 
their interference in the elections.
    But one of the things he pointed out was that Russia is 
looking at interference in elections, whether that be cyber or 
otherwise, the whole messaging piece that you discussed with 
Senator Heinrich, as another strategy along with their military 
action and economic and other diplomatic methods to undermine 
Western values, our Euro-Atlantic alliance, and he very 
democracies that make up that alliance. Is that something that 
you agree with, Director Clapper?
    Director Clapper. Yes. That is clearly a theme. It is 
certainly something that the Russians are pushing in messaging 
in Europe. They would very much like to drive wedges between us 
and Western Europe, the alliances there, and between and among 
the countries in Europe.
    Senator Shaheen. I assume that there is agreement on the 
panel. Does anybody disagree with that?
    One of the things that I think has emerged, as I have 
listened to this discussion, is that we do not have a strategy 
to respond to that kind of an effort. We do not have a 
strategy, it has been testified, with respect to cyber, but a 
broader strategy around messaging around how to respond to that 
kind of activity. Do you agree with that?
    Director Clapper. I am speaking personally.
    Senator Shaheen. Sure.
    Director Clapper. This is not an institutional response. As 
I commented earlier to Senator McCain, I do think we need a 
U.S. Information Agency on steroids that deals with the 
totality of the information realm and to mount in all forums 
and to include the social media.
    Senator Shaheen. I am sorry to interrupt, but can I just 
ask why do you believe that has not happened. Director Clapper, 
Admiral Rogers?
    Director Clapper. For my part, I do not know why it has 
not. I cannot answer that.
    Senator Shaheen. Admiral Rogers?
    Admiral Rogers. From my perspective, in part because I do 
not think we have come yet to a full recognition of the idea 
that we are going to have to try to do something fundamentally 
different. I think we still continue to try to do some of the 
same traditional things we have done and expecting to do the 
same thing over and over again, yet achieve a different result.
    Senator Shaheen. No. That is the definition of ``crazy.'' I 
think we have determined that.
    Secretary Lettre?
    Mr. Lettre. I would just add that in this area, the 
capability and intent framework is useful to think about. I 
think it is only in the last few years that we have seen 
adversaries with true intent to use propaganda and the ability 
to reach out as terrorists are doing and try to incite and 
match that up with the tremendous power that social media tools 
allow to make that easy and simple and effective and broadly 
applicable.
    Senator Shaheen. Given that this is a strategy and given 
that it is aimed not just at the United States particularly 
with respect to interference in our elections but at Western 
Europe and Eastern Europe for that matter, is there an effort 
underway to work with our allies through NATO or otherwise? I 
have been to the cybersecurity center in Estonia, but there did 
not seem to be a NATO agreement that this was something that we 
should be working on together to respond to. Is this an effort 
that is underway?
    Mr. Lettre. Just speaking from my lens on things, there is 
a lot of interest in doing that and doing it more effectively 
and more comprehensively, but we have not cracked the code on 
doing it effectively yet. We need to keep the pressure on 
ourselves and our NATO allies who are likeminded in this regard 
to keep improving our approach.
    Admiral Rogers. It has also got to be much broader than 
just cyber.
    Senator Shaheen. Thank you.
    Director Clapper, my time is almost up, but before you go 
since this is the last opportunity we will have to hear from 
you, can I just ask you, do you think the DNI needs reform?
    Director Clapper. Well, there is always room for 
improvement. I would never say that this is the ultimate. I do 
think it would be useful, though, if we are going to reform or 
change the DNI or change CIA, that some attention be given to, 
in our case, the legislative underpinnings that established the 
DNI in the first place and then have added additional functions 
and responsibilities over the years, that the Congress has 
added, to our kit bag of duties. But to say that there is not 
room for improvement, I would never suggest that.
    Senator Shaheen. I appreciate that. I certainly agree with 
you. I think that if there is going to be this kind of major 
reform, hopefully both legislators and others who have been 
engaged in the intelligence community will be part of that 
effort.
    Director Clapper. I certainly agree the Congress, no pun 
intended, gets a vote here I think.
    Senator Shaheen. Thank you.
    Chairman McCain. I know that our time has expired, and I 
apologize to our new members that you will not have time 
because you have to go. But maybe, Director Clapper, since this 
may be, hopefully, your last appearance, do you have any 
reflections that you would like to provide us with, 
particularly the role of Congress or the lack of the role of 
Congress in your years of experience?
    Director Clapper. I am going to have to be careful here.
    Chairman McCain. I do not think you have to be.
    [Laughter.]
    Director Clapper. I was around in the intelligence 
community when the oversight committees were first established 
and have watched them and experienced them ever since. Congress 
does have clearly an extremely important role to play when it 
comes to oversight of intelligence activities, and unlike many 
other endeavors of the Government, much of what we do, 
virtually all of what we do is done in secrecy. The Congress 
has a very important, a crucial responsibility on behalf of the 
American people for overseeing what we do particularly in terms 
of legality and protection of facilities and privacy.
    At risk of delving into a sensitive area, though, I do 
think there is a difference between oversight and 
micromanagement.
    Chairman McCain. Well, we thank you. We thank the 
witnesses. This has been very helpful. Director Clapper, we 
will be calling you again.
    Director Clapper. Really?
    [Laughter.]
    Chairman McCain. This meeting is adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator James Inhofe
                            cyber deterrence
    1. Senator Inhofe. Director Clapper, is it possible to deter 
adversaries from attacking America in an environment where the 
strategic capability and weapon system is available to anyone with 
broadband internet access?
    Director Clapper. [Deleted.]

    2. Senator Inhofe. Director Clapper, do you believe that sanctions 
like the ones levied against Russia in response to its election-related 
cyber activities are the proper tool to discourage future such 
behavior? What other tools would you recommend?
    Director Clapper. [Deleted.]

    3. Senator Inhofe. Director Clapper, do you believe that Obama 
Administration's response to Russia's recent activities represents a 
blueprint for effectively dealing with state-orchestrated malicious 
cyber activity?
    Director Clapper. [Deleted.]
                                 china
    4. Senator Inhofe. Director Clapper, do you believe China is 
abiding by its commitment not to support cyber enabled theft of 
intellectual property including trade secrets or other confidential 
business information for commercial advantage? Are they still 
conducting cyberattacks on the United States?
    Director Clapper. [Deleted.]
           telecom companies with ties to foreign governments
    5. Senator Inhofe. Director Clapper, in 2012, the House 
Intelligence Committee determined that China-based telecommunications 
companies Huawei and ZTE posed potential dangers to national security 
due to their entanglements with the Chinese Government. The same year, 
Australia denied a $41-billion national broadband contract to Huawei 
over similar concerns. However, Huawei is again trying to making 
inroads in Australia, and is working in the state of Victoria on data 
analysis and key utility systems. Do you believe significant 
involvement by our close allies with companies like Huawei poses a 
significant threat?
    Director Clapper. [Deleted.]
                               __________
                               
              Questions Submitted by Senator David Perdue
           threats to u.s. infrastructure and how to respond
    6. Senator Perdue. Admiral Rogers, you have stated several times 
that other nation states, such as Russia, China, Iran, and North Korea, 
have the power to cripple our critical infrastructure. Could these 
actors take down the U.S. power grid with their current capabilities 
today?
    Admiral Rogers. [Deleted.]

    7. Senator Perdue. Admiral Rogers, do such actors have the power to 
take down our banking and/or transportation infrastructure grids today?
    Admiral Rogers. [Deleted.]

    8. Senator Perdue. Admiral Rogers, if a state actor, or state-
sponsored actor, were to take down any of our critical infrastructure 
(specifically, one of the 17 infrastructure subsecors designated as 
``critical infrastructure subsectors'' by the Department of Homeland 
Security), would you consider this an act of war?
    Admiral Rogers. I defer to the Office of the Secretary of Defense, 
as the determination of what constitutes an ``act of war'' is a policy 
and legal decision. U.S. Cyber Command could respond to a Defense 
Support to Civil Authorities (DSCA) request if the request is routed 
through the Department of Homeland Security to the Secretary of 
Defense, and subsequently approved by the Secretary of Defense.

    9. Senator Perdue. Admiral Rogers, how would you recommend the U.S. 
respond to such an attack?
    Admiral Rogers. As commander of U.S. Cyber Command, I would present 
our Nation's leaders with suitable options for the employment of 
cyberspace capabilities in response to the incident, and to deter or 
prevent further hostile acts. However, it is important to recognize 
that a cyber attack does not necessarily require a cyber response. 
Cyber is only one element of national power our leaders can consider 
when developing a U.S. Government response to any type of attack on our 
Nation.

    10. Senator Perdue. Admiral Rogers, what are we prepared to do in 
response to such an attack?
    Admiral Rogers. Cyberspace response options, which vary by 
adversary and must be addressed on a case-by-case basis, should include 
whole-of-government considerations/response, and are subject to policy 
considerations. It is important to recognize that a cyber attack does 
not necessarily require a cyber response. Cyber is only one element of 
national power our leaders can consider when developing a U.S. 
Government response to any type of attack on our nation. U.S. Cyber 
Command's efforts to develop a rapidly maturing Cyber Mission Force 
(including those in the National Guard), coupled with strong 
relationships with intelligence organizations, foreign partners, 
allies, industry, academia, and joint partners, provide a resilient 
foundation from which we are developing cyberspace options to defend 
our networks, deter adversaries, and help defend the nation. U.S. Cyber 
Command is actively developing additional capabilities and capacities, 
aligned against our adversaries, so that when called upon by our 
nation's leaders, we are ready to support with full-spectrum cyberspace 
options.
     definition of cyber ``act of war'' and international consensus
    11. Senator Perdue. Director Clapper and Admiral Rogers, you raised 
in your joint testimony that the key problem in dealing with cyber 
issues with our adversaries is that there is not an international 
consensus over key concpets regarding what constitutes an act of 
aggression or use of force in cyberspace and what international laws 
should govern this debate. What efforts are being undertaken to advance 
a sense of consensus on how we define cyberattacks on the world stage?
    Director Clapper. [Deleted.]
    Admiral Rogers. [Deleted.]

    12. Senator Perdue. Director Clapper and Admiral Rogers, how can we 
better define the rules of the road for cyber internationally so we can 
appropriately defend our NATO allies when necessary, and so that any 
actions that we deem as appropriate countermeasures don't get blown out 
of proportion and elicit unforeseen consequences?
    Director Clapper. [Deleted.]
    Admiral Rogers. [Deleted.]

    13. Senator Perdue. Director Clapper, you said in your February 
2016 threat assessment that you would continue to monitor compliance 
with China's September 2015 commitment to refrain from conducting or 
knowingly supporting cyber-enabled theft of intellectual property for 
providing a completive advantage. Could you provide us with an update 
on China's compliance with the September 2015 agreement?
    Director Clapper. [Deleted.]

    14. Senator Perdue. Director Clapper, does China continue to 
sponsor hacking and cyber espionage for commercial gain?
    Director Clapper. [Deleted.]
                           ``dual hat'' issue
    15. Senator Perdue. Admiral Rogers, in the president's signing 
statement of the 2017 NDAA, President Obama expressed his displeasure 
with the new limitations preventing the premature separation of Cyber 
Command and NSA. Is it still your professional military advice that 
maintaining the ``dual hat'' is in our best national security interest?
    Admiral Rogers. My professional military advice is that separation 
is the right step in the future, but it will take dedicated effort and 
resources to ensure the long-term success of both organizations 
following separation. Therefore, upon elevation of U.S. Cyber Command, 
the Commander, USCYBERCOM, should provide the Secretary of Defense and 
Chairman of the Joint Chiefs of Staff a vision and plan for potential 
future separation. This vision and plan would define the required 
resources and associated time table for separation.

    16. Senator Perdue. Secretary Lettre and Admiral Rogers, the 
President's statement suggests that the Department of Defense and the 
Office of the Director of National Intelligence are taking steps to 
begin the separation. Have you been asked to take any irreversible 
steps that may undermine the law the President signed a few weeks ago 
prohibiting the separation until a number of specific conditions have 
been met?
    Secretary Lettre. [Deleted.]
    Admiral Rogers. No.

    17. Senator Perdue. Admiral Rogers, how would you advise the next 
administration to consider the ``dual hat'' issue?
    Admiral Rogers. I would advise the administration that elevation 
and the dual-hat issue are separate and distinct. My professional 
military advice is that separation is the right step in the future, but 
it will take dedicated effort and resources to ensure the long-term 
success of both organizations following separation. Additionally, I 
recommend the elevation of U.S. Cyber Command to a combatant command 
occur now. Upon the elevation of U.S. Cyber Command, the Commander, U.S 
Cyber Command, should provide the Secretary of Defense and Chairman of 
the Joint Chiefs of Staff a vision and plan for potential future 
separation. This vision and plan would define the required resources 
and associated time table for separation.
                        isis--disrupt v. destroy
    18. Senator Perdue. Secretary Lettre and Admiral Rogers, according 
to Secretary Carter, we are ``using cyber tools to disrupt ISIS's 
ability to operate and communicate over the virtual battlefield.'' Why 
are we only trying to ``disrupt'' ISIS's ability to operate and 
communicate in cyberspace? Shouldn't we aspire to destroy ISIS's 
ability to leverage cyberspace to its advantage?
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    19. Senator Perdue. Admiral Rogers, to what extent are overly 
restrictive limitations or the lack of clear policy guidance from the 
Obama Administration impeding your ability to utilize cyber on the 
battlefield?
    Admiral Rogers. Cyber has been successfully used on the battlefield 
in support of and in executing primary military objectives; we are 
getting better at delivering cyber effects to support our National 
objectives every day. That said, it is a complex domain that requires a 
better coordinated whole-of-government approach and allocation of 
commensurate resources so that the speed at which cyber effects can be 
delivered meet the timing and tempo required on the battlefield. 
Currently, outside of existing authorities granted under the Countering 
Adversary Use of the Internet (CAUI) EXORD, operations that will create 
a cyber effect must be approved by the President (PPD-20).

    20. Senator Perdue. Admiral Rogers, how could the military better 
use the cyber tools at our disposal to target ISIL's ability to operate 
and communicate over the virtual battlefield?
    Admiral Rogers. [Deleted.]
    cyber as a part of russian hybrid attacks and how to better aid 
                            european allies
    21. Senator Perdue. Director Clapper and Secretary Lettre, we're 
seeing an intensification of so-called hybrid warfare by Russia not 
only in the United States, but also against targets in Eastern Europe, 
such as the use of a combination of cyberattacks, propaganda, and 
little green men to destabilize and otherwise subvert Ukraine. Given 
the fact that many of these actions can't be immediately confirmed as 
attributed to Russia, what's the appropriate response of nation-states 
to these types of actions?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]

    22. Senator Perdue. Director Clapper and Secretary Lettre, how do 
you think Russia might further use cyber warfare going forward to 
destabilize Ukraine or the Baltics, especially as a part of a broader 
hybrid warfare effort?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]

    23. Senator Perdue. Secretary Lettre and Admiral Rogers, what are 
we doing to assist states who may be vulnerable to future Russian 
cyberattacks to help them build up their capabilities?
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    24. Senator Perdue. Director Clapper, Secretary Lettre and Admiral 
Rogers, how concerned should we be in the United States about the 
Russian capacity and capability in cyberspace?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    25. Senator Perdue. Director Clapper and Secretary Lettre, are we 
prepared and postured to counter this threat?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
                       cyber policy deficiencies
    26. Senator Perdue. Secretary Lettre and Admiral Rogers, some have 
expressed concern that the dysfunction of the White House policy 
process has greatly restricted the Department of Defense's ability to 
provide capabilities that could address urgent warfighter needs. From a 
warfighting standpoint, would you characterize the authorities 
delegated to you as being expansive or limited?
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    27. Senator Perdue. Admiral Rogers, how does the delegation of 
authority for Cyber Command compare to the authorities you are 
delegated as NSA director in emergency situations?
    Admiral Rogers. [Deleted.]

    28. Senator Perdue. Admiral Rogers, how has the uncertainty 
hampered your ability to meet the needs of the geographic combatant 
commands?
    Admiral Rogers. Uncertainty in the emerging cyberspace domain is a 
challenge; however, close interagency coordination, information 
sharing, and planning has delivered positive mission outcomes in 
support of combatant commander objectives around the globe. As we do 
so, our greatest challenge is our combatant commanders want more and 
more as we bring forces online. I believe that is a testament to what 
our men and women bring to the fight. What I hear from my fellow 
operational commanders is ``could you do even more and could you do it 
faster''?
                         iranian cyber threats
    29. Senator Perdue. Director Clapper, Secretary Lettre and Admiral 
Rogers, it now appears that Iran has ramped up its use of cyberattacks 
(including on U.S. financial institutions) as well as cyber 
reconnaissance efforts on diplomats and critical infrastructure. Do you 
believe that the Iranian regime has control over the majority of cyber 
operations that emanate from Iran? Are most cyberattacks coming from 
Iran state-directed?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    30. Senator Perdue. Director Clapper, Secretary Lettre and Admiral 
Rogers, could you discuss Iran's cyber capabilities and how they impact 
our national security?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]
                       north korea cyber threats
    31. Senator Perdue. Director Clapper, Secretary Lettre and Admiral 
Rogers, last year, South Korean officials uncovered a North Korean plot 
for a massive cyberattack where North Korea hacked into more than 
140,000 computers at 160 South Korean firms and government agencies. 
Have you found proof of any similar threats or attacks on United States 
companies and government agencies from North Korea?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    32. Senator Perdue. Director Clapper, Secretary Lettre and Admiral 
Rogers, what could be done to deter North Korean cyberattacks against 
the United States?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]
                          adequate cyber force
    33. Senator Perdue. Admiral Rogers, the Services are largely on 
track to meet the September 2018 goal for the training of a 6,200-
person cyber force. However, the same cannot be said concerning the 
development and procurement of basic tools and capabilities required 
for both defensive and offensive cyber operations. Unless the services 
begin to prioritize the development of these capabilities, we could be 
heading down the path to a hollow cyber force. Do you agree that we are 
currently on the path of creating a hollow cyber force?
    Admiral Rogers. [Deleted.]

    34. Senator Perdue. Admiral Rogers, are you aware that some 
services failed to fund even the most basic tools like those necessary 
for the cyber protection teams to assess and triage compromised 
networks?
    Admiral Rogers. No. Each of the Services has funded its Deployable 
Mission Support System (DMSS) solution to support the Cyber Protection 
Teams. I signed the DMSS System Requirements Document (SRD) on August 
16, 2016. The Services participated in the year-long drafting of the 
DMSS SRD and either had or were in the development of their material 
solution for the DMSS during SRD development. All have procured and 
provided--to some level--their DMSS. U.S. Cyber Command has funded and 
is in the process of conducting a formal assessment of each Service 
DMSS solution to ensure the CPTs have the minimum capability to execute 
their mission. Additionally, U.S. Cyber Command is drafting a TASKORD 
to each of the Service Cyber Components directing specific software 
solutions to ensure standardization to meet basic CPT requirements.

    35. Senator Perdue. Admiral Rogers, are the services committed to 
requesting the resources needed to make our cyber forces effective? If 
not, what do we need to do to ensure that we are resourcing 
appropriately?
    Admiral Rogers. Yes. From our perspective, each Service recognizes 
the needs of our cyber forces and is committed to force readiness. Each 
has brought capabilities to the fight for both offensive and defensive 
purposes. That said, because each Service uses a unique model for 
recruiting, organizing, manning, training, and equipping the Cyber 
Mission Force, we have disparate models that do not facilitate a 
uniform or holistic approach to force management across the DOD cyber 
enterprise.
    Additionally, the Services continue to support most U.S. Cyber 
Command requests for joint capability development (manpower, tools, and 
infrastructure) through appropriate DOD processes.

    36. Senator Perdue. Admiral Rogers, do you have the hiring 
authorities needed to compete for talent with the private sector and 
retain them once trained?
    Admiral Rogers. [Deleted.]
                               __________
                               
                Questions Submitted by Senator Ted Cruz
                      iran-north korea cooperation
    37. Senator Cruz. Director Clapper, thank you for the response to 
the October 19th, 2016 letter I sent you expressing concern over the 
possible nuclear cooperation between Iran and North Korea. To follow up 
on your response, it would be helpful if you could provide input to the 
below questions in an unclassified format.
    Director Clapper. [Deleted.]

    38. Senator Cruz. Director Clapper, does the Intelligence Community 
need any additional tools or policies to track Iranian and North Korean 
illicit activity?
    Director Clapper. [Deleted.]

    39. Senator Cruz. Director Clapper, does the Intelligence Community 
assess that there has been a change in the level of their collaboration 
following Implementation Day of the JCPOA?
    Director Clapper. [Deleted.]

    40. Senator Cruz. Director Clapper, does the Intelligence Community 
assess that China has increased their economic ties to North Korea, 
freeing the latter from some of the effects of sanctions?
    Director Clapper. [Deleted.]
                                 china
    41. Senator Cruz. Admiral Rogers, I am concerned about the 
increased global reach of Chinese telecom companies that have 
established infrastructure in Iran, North Korea, Sudan, Syria, and now 
Cuba. United States intelligence agencies have linked these nominally 
private entities to China's military and internal Pentagon reports 
found that Chinese-manufactured electronics had been loaded with 
malware. It is my understanding the NSA, along with the FBI, has begun 
a formal review to assess the national security implications of a 
potential U.S. partnership with such a company. Can you confirm this?
    Admiral Rogers. [Deleted.]

    42. Senator Cruz. Admiral Rogers, what is your assessment of the 
national security risk that would result from United States firms 
entering joint enterprises with such Chinese telecom companies?
    Admiral Rogers. [Deleted.]

    43. Senator Cruz. Director Clapper, when China's compliance with 
the September 2015 cyber agreement came up in last week's hearing, you 
testified that China continues ``to conduct cyber-espionage. They have 
curtailed, as best we can tell. There has been a reduction and I think 
the private sector would agree with this. There has been some reduction 
in their cyber activity. The agreement simply called for stopping such 
exfiltration for commercial gain.'' However, this reduction does not 
remove concern that China still seeks to appropriate United States 
intellectual property via cyber intrusions. According to a 2016 
Department of State Overseas Security Advisory Council report, 
cyberattacks from Chinese hackers have continued and outpaced other 
nation-state actors in consistency, volume, and severity. Moreover, 
private firm Crowdstrike found that China continued cyberattacks on 
United States technology and pharmaceutical firms--suggesting a 
motivation to appropriate U.S. intellectual property. Despite the 
Intelligence Community's assessed curtailment of cyber-espionage by 
China, do you share the report's opinion that China remains the most 
active nation-state with respect to cyberattacks against American 
business enterprises?
    Director Clapper. [Deleted.]

    44. Senator Cruz. Director Clapper, what level of confidence does 
the Intelligence Community provide their assessment that the September 
2015 agreement successfully curtailed Chinese hacking and by how much 
has it been curtailed?
    Director Clapper. [Deleted.]

    45. Senator Cruz. Director Clapper, does the Intelligence Community 
believe that the People's Republic of China has taken action against 
any independent cyber attackers within China?
    Director Clapper. [Deleted.]
                              north korea
    46. Senator Cruz. Director Clapper, North Korea demonstrated its 
cyber capabilities in the 2014 hack on Sony Pictures. In reviewing the 
statutory criteria of international terrorism--`violent acts or acts 
dangerous to human life that . . . [that] appear to be intended to 
intimidate or coerce a civilian population'', it is my estimation that 
the Sony hack clearly rose to the level of coercion. In threatening 
Sony executives, North Korea effectively committed cyber terrorism 
against the United States. In your professional opinion, is the Sony 
hack justification for re-designating North Korea as a state sponsor of 
terrorism?
    Director Clapper. [Deleted.]
                               __________
                               
           Questions Submitted by Senator Richard Blumenthal
                              north korea
    47. Senator Blumenthal. Director Clapper, Secretary Lettre and 
Admiral Rogers, a recent report by the South Korean Defense Agency for 
Technology and Quality claims that North Korea possesses the capability 
to take down PACOM's network and inflict damage upon the United States 
power grid. What is your assessment of this report and North Korea's 
progress in development of its cyber capabilities and do you believe 
that they have the capacity to disrupt PACOM or the United States power 
system?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]
                                cybercom
    48. Senator Blumenthal. Admiral Rogers, what is the timeline for 
elevating CYBERCOM to a fully operational combatant command?
    Admiral Rogers. I have recommended to the Secretary of Defense and 
the Chairman of the Joint Chiefs that Elevation of U.S. Cyber Command 
can occur immediately upon the decision of the President.
                               __________
                               
            Questions Submitted by Senator Elizabeth Warren
          u.s. tools for cyber response and strategic calculus
    49. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, in public remarks at a conference on November 15, 2016, Admiral 
Rogers described Russian-directed hacking to interfere with our 
election as ``a conscious effort by a nation state to attempt to 
achieve a specific effect.'' The Intelligence Community's January 6, 
2017 declassified report, ``Assessing Russian Activities and Intentions 
in Recent United States Elections,'' [hereinafter Intelligence 
Community Assessment, or ICA] concluded with ``high confidence'' that 
``Russian President Vladimir Putin ordered an influence campaign in 
2016 aimed at the United States presidential election[,]'' that 
``Russia's goals were to undermine public faith in the United States 
democratic process,'' and that the Russian Government's ``influence 
campaign [ . . . ] blends covert intelligence operations--such as cyber 
activity--with overt efforts by Russian Government agencies, state-
funded media, third-party intermediaries, and paid social media users 
or `trolls.' '' We have a diverse array of tools in our toolbox for 
responding to a state-sponsored cyber-attack. The Administration 
exercised some of these options on December 29, 2016--expelling spies 
and sanctioning certain individuals and groups. When we respond to 
cyberattacks with our own cyber-based countermeasures, what kind of 
response do you generally believe is more effective: ``loud'' offensive 
actions that plainly demonstrate the strength of our capabilities to 
the enemy, or covert actions that might be incorrectly attributed or 
otherwise misinterpreted but might have a greater effect over a longer 
time? Please explain.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]
    qualification of a cyber-attack and protection of data integrity
    50. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, during the Committee's hearing, Director Clapper suggested a 
distinction between a cyber-attack and an act of cyber-espionage. 
Appearing before the House Intelligence Committee on September 10, 
2015, Director Clapper said the July 2015 data breach of the Office of 
Personnel Management [hereinafter OPM] ``really wasn't [an attack] 
since it was entirely passive and didn't result in [ . . . ] 
destruction of data or manipulation of data. It was simply stolen.'' If 
OPM employee information--or voter registration rosters in the recent 
election--had been manipulated or corrupted in any way, would this have 
constituted a cyber-attack, and what would be the threshold of intent 
or harm to constitute a cyber-attack? Please explain and cite any 
applicable legal authority or policy.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. Whether a particular cyber activity rises to the 
level of an armed attack or a use of force under international law, or 
otherwise constitutes an unlawful intervention, is determined on a 
case-by-case basis by our Nation's leaders. I defer to the Office of 
the Secretary of Defense response submitted below for what the 
threshold of intent or harm is for an action to constitute a cyber 
attack.
    Yes. Generally, what constitutes a cyber attack is any malicious 
cyber activity that disrupts, denies, degrades, manipulates, or 
destroys computers, computer networks, the data stored on them, or the 
virtual or physical services and infrastructure that they support.
    However, in this scenario, after a determination is made that 
malicious cyber activity constituted a''cyber attack'' on the United 
States, there are a number of other factors that must be determined 
including attribution, the severity and impact of what is being done 
with the exfiltrated employee information, degree of information 
manipulation or corruption, and intent. Each malicious cyber activity 
will then be examined on a case-by-case basis and against a variety of 
the aforementioned factors to determine the most appropriate response. 
(whether the cyber activity constitutes an ``armed attack'' under the 
law of armed conflict is a slightly different question, but would 
similarly require a case-by-case determination in light of the scale 
and effects)

    51. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, the potential for data manipulation is a serious concern--both 
for defense and civilian networks. The witnesses have previously 
alluded to this point in public statements. For example, in public 
remarks at a conference on November 19, 2015, Admiral Rogers shared 
concerns about data manipulation stating ``what happens if what I'm 
looking at does not reflect reality [ . . . and] leads me to make 
decisions that exacerbate the problem I'm trying to deal with.'' Our 
daily lives rely on confidence in the integrity of the data that is 
used to keep our nation safe and our economy operating. In addition to 
active cyber defense measures, such as firewalls, and offensive 
deterrence measures, do we routinely create and monitor redundancies 
for all critical data infrastructure such that, in the event of a 
breach and manipulation, we are able to positively detect and correct 
any distorted data? Please explain.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]
        norms of behavior in countering malicious cyber activity
    52. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, would both state-sponsored and non-state actor-sponsored 
malicious cyber-attacks on the United States constitute acts of war? 
Please explain and cite any applicable authority.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    53. Senator Warren. Director Clapper and Admiral Rogers, during the 
Committee's hearing, USDI Lettre made a passing reference to ``what do 
we mean by a proportional response.'' When the United States decides to 
execute countermeasures in response to malicious cyber activity that we 
can confidently attribute to a particular state, what are the primary 
considerations associated with a proportional response--the malicious 
nature of the cyber-attack, the unique vulnerabilities of our 
adversary, or other factors? Please explain and cite any applicable 
authority.
    Director Clapper. [Deleted.]
    Admiral Rogers. [Deleted.]

    54. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, what are the factors that determine whether malicious cyber 
activity--state-sponsored or committed by a non-state actor--against 
the United States requires a response? Please explain and cite any 
applicable authority.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    55. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, how do you determine when and whether it is appropriate for the 
United States Government to publicly attribute malicious cyber activity 
directed against the United States? Please explain and cite any 
applicable authority.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    56. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, how do you determine when and whether it is appropriate for the 
United States Government to declassify information related to a 
malicious cyber activity directed against the United States? Please 
explain and cite any applicable authority.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. I concur with the response from Office of Secretary 
of Defense and defer this question to the Director of National 
Intelligence who is responsible for coordinating declassification 
determinations in accordance with Executive Order 13526.
       managing escalation in countering malicious cyber activity
    57. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, how do we respond to a state-sponsored malicious cyber-attack 
while maintaining escalation dominance--in other words, the ability of 
the United States to limit the risk of unintended and prolonged 
escalation and end a cyber-based conflict on our terms?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. The decision of how our Nation responds to a state-
sponsored malicious cyberattack is one made by our Nation's leaders. 
They have all instruments of national power on the table, including 
other military capabilities and a whole-of-government approach as well.
    As a matter of long-standing policy, we don't define how we would 
respond to an adversary in any domain. My duty is to provide the 
Secretary and President with credible options in cyberspace that, along 
with options in other domains, offer our leadership multiple courses of 
action to control escalation. From my perspective, that is best done 
with policies and authorities that enable our cyber mission forces to 
conduct their missions when directed.
               enhancing cyber security in our democracy
    58. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, the United States has a highly-digitized, interconnected 
economy that is more vulnerable to cyber intrusions because the 
Government does not exercise authoritarian control over the Internet. 
How do we fortify our own critical cyber-infrastructure against attacks 
while maintaining the openness and transparency of our networks?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    59. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, private businesses and other companies are increasingly the 
targets of state-sponsored cyber-attacks, and protecting the 
information held by these companies and their customers is important to 
our citizens' privacy, our economic security, and our national 
security. Cybersecurity presents many challenges, including the 
potential friction between information sharing among government 
agencies and private companies to pre-empt cyber threats, and the 
desire to secure communications and devices through encryption. Given 
the greater vulnerability of our open and interconnected networks, are 
you concerned that the sharing of cyber threat data among the 
Government and the private sector could make our country more 
vulnerable to theft and other malicious cyber activity--in addition to 
endangering the privacy of our citizens' data? Please explain, 
including relevant concerns under both voluntary and mandatory sharing 
scenarios.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

    60. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, would universal encryption--without any mandated backdoors--on 
servers and devices help address the unintended consequences of well-
intentioned cyber threat information sharing?
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]
   russian malicious cyber activity against other nations' elections
    61. Senator Warren. Director Clapper, Secretary Lettre and Admiral 
Rogers, the Intelligence Community Assessment observed that Russia 
``will apply lessons learned from its campaign aimed at the United 
States presidential election to future influence efforts in the United 
States and worldwide, including against U.S. allies and their election 
processes.'' With elections scheduled this year in the Netherlands, 
France, Germany, and elsewhere, what steps are your agencies currently 
taking to help strengthen these and other allies' cyber defense 
capabilities against Russian and other election-related state-sponsored 
malicious cyber activity? Please explain.
    Director Clapper. [Deleted.]
    Secretary Lettre. [Deleted.]
    Admiral Rogers. [Deleted.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
